<html>
<title> - THE EVERY STUDENT SUCCEEDS ACT: UNLEASHING STATE INNOVATION</title>
<body><pre>[Senate Hearing 115-619]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 115-619

      THE EVERY STUDENT SUCCEEDS ACT: UNLEASHING STATE INNOVATION

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

	 EXAMINING THE EVERY STUDENT SUCCEEDS ACT, FOCUSING ON 
                      UNLEASHING STATE INNOVATION
                              __________

                            OCTOBER 3, 2017
                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions
                                

                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                                    
        Available via the World Wide Web: http://www.govinfo.gov
        
                              ___________

                  U.S. GOVERNMENT PUBLISHING OFFICE
                    
27-106 PDF                 WASHINGTON : 2019      
        


        

          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  LAMAR ALEXANDER, Tennessee, Chairman

MICHAEL B. ENZI, Wyoming	PATTY MURRAY, Washington
RICHARD BURR, North Carolina	BERNARD SANDERS (I), Vermont
JOHNNY ISAKSON, Georgia		ROBERT P. CASEY, JR., Pennsylvania
RAND PAUL, Kentucky		AL FRANKEN, Minnesota
SUSAN M. COLLINS, Maine		MICHAEL F. BENNET, Colorado
BILL CASSIDY, M.D., Louisiana	SHELDON WHITEHOUSE, Rhode Island
TODD YOUNG, Indiana		TAMMY BALDWIN, Wisconsin
ORRIN G. HATCH, Utah		CHRISTOPHER S. MURPHY, Connecticut		
PAT ROBERTS, Kansas		ELIZABETH WARREN, Massachusetts
LISA MURKOWSKI, Alaska		TIM KAINE, Virginia
TIM SCOTT, South Carolina	MAGGIE WOOD HASSAN, New Hampshire
                                                                        

               David P. Cleary, Republican Staff Director

         Lindsey Ward Seidman, Republican Deputy Staff Director

                 Evan Schatz, Democratic Staff Director

             John Righter, Democratic Deputy Staff Director

                                  (ii)

 


                            C O N T E N T S

                               __________

                               STATEMENTS

                       TUESDAY, OCTOBER, 3, 2017

                                                                   Page

                           Committee Members

Alexander, Hon. Lamar, Chairman, Committee on Health, Education, 
  Labor, and Pensions, Opening Statement.........................     1
Murray, Hon. Patty, Ranking Member, Committee on Health, 
  Education, Labor, and Pensions, Opening Statement..............     3
Young, Hon. Todd, a U.S. Senator from the State of Indiana.......    26
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................    33
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................    35
Murphy, Hon. Christopher S., a U.S. Senator from the State of 
  Connecticut....................................................    37
Kaine, Hon. Tim, a U.S. Senator from the State of Virginia.......    39
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    41
Hassan, Hon. Maggie Wood, a U.S. Senator from the State of New 
  Hampshire......................................................    45
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    47
Cassidy, Hon. Bill, M.D., a U.S. Senator from the State of 
  Louisiana......................................................    49

                               Witnesses

Statement of Candice McQueen, Ph.D., Commissioner, Tennessee 
  Department of Education, Nashville, TN.........................     6
    Prepared statement...........................................     7
Statement of John White, State Superintendent of Education, 
  Louisiana Department of Education, Baton Rouge, LA.............    12
    Prepared statement...........................................    14
Statement of Christopher Ruszkowski, Secretary of Education, New 
  Mexico Public Education Department, Santa Fe, NM...............    16
    Prepared statement...........................................    18
Statement of David Steiner, Ph.D., Executive Director, Johns 
  Hopkins Institute for Education Policy, Annapolis, MD..........    21
    Prepared statement...........................................    23

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Foster Care Educational Stability Overview...................    53
    Louisiana Foster Care Transportation Guidelines..............    54
    Appendix-B Graduation Rate Gaps by State.....................    64
    Appendix-C Essa High Schools (100 or more students) with ACGR 
      of 67 Percent or Below by State, 2014-15...................    67
    Appendix-D Colorado Equity Dashboard.........................    68
    Appendix-E DC Equity Dashboard...............................    70
    Appendix-F Illinois Equity Dashboard.........................    72
    Appendix-G Louisiana Equity Dashboard........................    74
    Appendix-H New Mexico Equity Dashboard.......................    76
    Alliance for Excellent Education Statement for the Record....    78

                                 (iii)
  
  Responses by Candice McQueen to questions of:
    Senator Murray...............................................    86
    Senator Franken..............................................    86
  Responses by John White to questions of:
    Senator Murray...............................................    87
    Senator Franken..............................................    87
  Responses by Christopher Ruszkowski to questions of:
    Senator Murray...............................................    88
    Senator Franken..............................................    88
  Responses by David Steiner to questions of:
    Senator Murray...............................................   102
    Senator Franken..............................................   102
    Senator Kaine................................................   103


 
           THE EVERY STUDENT SUCCEEDS ACT: UNLEASHING STATE INNOVATION

                              ----------                              


                        TUESDAY, OCTOBER 3, 2017

                               U.S. Senate,
Committee on Health, Education, Labor, and Pensions
                                             Washington, DC
    The Committee met, pursuant to notice, at 10 a.m. in room 
SD-430, Dirksen Senate Office Building, Hon. Lamar Alexander, 
Chairman of the Committee, presiding.
    Present: Senators Cassidy, Young, Murray, Casey, Bennet, 
Whitehouse, Murphy, Warren, Kaine, and Hassan.

                 Opening Statement of Senator Alexander

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order.
    This morning, we are holding a hearing to learn more about 
the innovative approaches states are taking in their state 
plans under the Every Student Succeeds Act, a law this 
Committee recommended and passed to fix No Child Left Behind.
    Senator Murray and I will each have an opening statement. 
After the witnesses' testimonies, Senators will have an 
opportunity to ask the witnesses 5 minutes of questions. If 
Senators have more questions, why, we will stay for that.
    On April 16, 2015--after 7 years of congressional effort, 
27 hearings, many hours of work, and a 3-day markup in which we 
considered 57 amendments--this Committee met for a final vote 
on legislation to fix No Child Left Behind.
    That vote started with Senator Murray and it ended with me. 
In the end, the Clerk read the vote, ``I have 22 ayes, zero 
nays,'' he said. It was a dramatic and emotional moment. The 
room erupted in applause. We found Senators even applauding 
ourselves.
    Equally dramatic, in December 2015, the Senate passed, by a 
vote 85-12, the Every Student Succeeds Act. When President 
Obama signed the Bill into law, he called it, ``A Christmas 
Miracle.''
    After he signed ESSA, I said, ``Today we are unleashing a 
new era of innovation and excellence in student achievement. 
One that recognizes that the path to higher standards, better 
teaching, and real accountability is classroom by classroom, 
community by community, and state by state, and not through 
Washington, DC.''
    The Nation's Governors took the extraordinary step of 
formally endorsing ESSA, as we call it, saying that the law is 
poised to transform the Federal system, return responsibility 
to the states, and dramatically reduce the Federal footprint 
while encouraging and building on state efforts to expand 
educational opportunities for students who need help the most.
    The Council of Chief State School Officers said, quote, 
``This is an historic moment. It is a trajectory that will 
bring stability to states, offering ground firm enough for 
states to innovate, and design systems that specifically meet 
the needs of their students.''
    The purpose of today's hearing is to see to what extent 
that has happened.
    The Every Student Succeeds Act is an historic piece of 
legislation because it represents that we can reach a 
bipartisan consensus on a topic of considerable differences: 
elementary and secondary education.
    That consensus was this: continue the law's important 
measurements of academic progress of students, but restore to 
states what to do about that progress.
    I started out thinking that we should get rid of the 17 
Federally required state-designed tests between grades 3 and 12 
because of my aversion to Washington, DC control. I listened to 
those in the classrooms and those in the states.
    Senator Howard Baker used to suggest to me that it was a 
virtue to be an eloquent listener and that sometimes the other 
fellow--that is what he said, the other fellow--may be right.
    So I listened and I saw that the tests themselves were not 
the problem, but they were actually helpful. What needed to be 
changed was who was in charge of doing something about the 
results of those tests.
    So we kept the 17 tests so we can know how our students are 
doing, and required those results to be disaggregated and 
reported to the public. But the law restores back to the 
classroom teachers, local school boards, communities, and 
states the responsibility for what to do about the results of 
those tests.
    The Every Student Succeeds Act put states back in the 
driver's seat for decisions on how to help their students. It 
was also historic because we clearly wrote prohibitions on the 
Secretary into the law.
    For example, the Secretary is specifically prohibited from 
telling states how to set academic standards, how to evaluate 
state tests, how to identify and fix low performing schools, 
teacher evaluation systems, and setting state goals for student 
achievement and graduation rates. That was true for President 
Obama's Education Secretary, it is true for Secretary DeVos, 
and it will be true for the next Education Secretary.
    So here is where we are today. Under the Every Student 
Succeeds Act, in order to receive $15.5 billion in annual 
Federal Title I funding, every state must submit their Title I 
plans to the Department of Education that sets goals for their 
students, and shows how the states will hold schools 
accountable for their performance.
    Sixteen states submitted their plans by the spring deadline 
of May 3rd, and so far 14 of those have been approved by the 
Department.
    Thirty-two states submitted plans by the fall deadline of 
September 18, and will now go through the review and approval 
process to make sure they meet the requirements of the law.
    The two remaining states have been given an extension 
because of the hurricanes, and are finishing developing their 
plans, and will submit them in the near future.
    Despite a new law, a new Administration, and Congress 
overturning an Obama era accountability provision that did 
exactly what Congress told the Department not to do, this has 
been a smooth process for states.
    Under the law, the Department has 120 days to review and 
approve state plans once they are submitted. So far, Secretary 
DeVos has met this deadline and provided recommendations on 
making the states' plans stronger, and I think the Department 
should be congratulated for this.
    Today, we will hear from three of the first 14 states whose 
plans have been approved. Based upon my own review of the 
plans, these States--Tennessee, Louisiana, and New Mexico--have 
taken the most advantage of the flexibility we offered under 
the law in creating innovative plans.
    For example, Tennessee's plan includes a Ready Graduate 
Indicator, which demonstrates students' readiness for more than 
just college after high school. If you are a student who is 
planning to join the military or workforce after graduation, 
this indicator shows the State you are prepared.
    Louisiana has developed a career education initiative and a 
diverse course program, which means school districts will be 
able to offer students more career and technical preparation, 
advanced coursework, and dual enrollment.
    After listening to teachers, school districts, and parents, 
New Mexico has included robust student services in their plan. 
If you are the parent of a child who needs early education 
programs or extra math help, this means they will be able to 
access those services.
    I look forward to the hearing and to hearing more about the 
ways your states are taking advantage of the freedom to 
innovate under the Every Student Succeeds Act.
    Senator Murray.

                  Opening Statement of Senator Murray

    Senator Murray. Well, thank you very much, Chairman 
Alexander.
    I want to thank all of our witnesses for being here today. 
I look forward to hearing from the State Chiefs about their 
progress in implementing our landmark education law, and from 
Dr. Steiner about his observations of ESSA implementation more 
broadly.
    But first, I do want to talk a little bit about the Every 
Student Succeeds Act and how we got here. As the Chairman said, 
in 2015, we came together with a lot of others to fix No Child 
Left Behind. We agreed. In fact, a lot of people around the 
country agreed. The law was badly broken.
    No Child Left Behind relied on one-size-fits-all mandates. 
It failed to provide struggling schools with the resources they 
needed to improve. We listened to teachers, and parents, and 
students across the country to hear what they believed were the 
biggest challenges in schools today.
    I am very proud to say we broke through that partisan 
gridlock--that plagues Washington these days--to find common 
ground and pass the Every Student Succeeds Act.
    ESSA gives states the flexibility they asked for to 
innovate and educate students in the ways that work best for 
them. This flexibility, however, is only possible because of 
the strong Federal guardrails in the law, including 
accountability standards, to make sure that no child in this 
country falls through the cracks.
    These guardrails are critical to ensuring that any student, 
regardless of where they live, or how they learn, or how much 
money their parents make, can receive a high quality education.
    A lot of the discussion today will be focused on state 
flexibility and innovation, but we also do need to talk about 
those guardrails of ESSA and whether they are being met by 
states.
    I fear that the totally inaccurate notion that ESSA is all 
flexibility, and has no role for the Federal Government, has 
taken over in some places. We need to be clear with states, and 
the Department of Education, that there are, indeed, Federal 
guardrails in ESSA that have to be met.
    Though there was bipartisan consensus around passing ESSA 
in 2015, I have to say I was disappointed in March of this year 
when republicans in Congress did rollback a rule that simply 
clarified many of the important Federal guardrails in the law. 
Many felt this signaled to states that their plans would be 
approved by the Department without any scrutiny. State plans 
still have to comply with all the Federal guardrails in ESSA.
    In April, 16 states and the District of Columbia did submit 
their plans to the Department and I have to say, at first, I 
was pleased to see the Department providing thorough feedback 
to those states through public letters.
    Well, those letters did not catch all the violations. It 
was a good sign that the Department was taking its role 
seriously, but after harsh and unfair criticism, the Department 
has, unfortunately, bowed down to public pressure and changed 
their feedback process.
    After several states received detailed feedback letters, 
the Department then limited public access to what should be a 
transparent state plan approval process.
    As I said in a letter to Secretary DeVos at the time, a 
phone call and a verbal agreement between states and the 
Department prior to the release of a public letter is not a 
substitute for public discourse. If the Department needs more 
information to better understand a State's plan, so do the 
parents, and teachers, and civil rights advocates, Members of 
Congress, and all stakeholders.
    This is particularly troubling to me given Secretary 
DeVos's recent comment openly encouraging states to, quote, 
``Go right up to the line, test how far it takes to get over 
it.'' Proving she was serious, the Department has approved 
plans that do not now comply with the guardrails contained in 
ESSA. To me, this is really concerning and something, I 
believe, that we need Secretary DeVos to address.
    Given the critical role of the Department, I am 
disappointed that Secretary DeVos, or anyone from the 
Department, is not here to explain their inconsistent approval 
process.
    I really hope, Mr. Chairman, that we can have her in front 
of this Committee to ask her those critical questions because 
it is the Department's responsibility to make sure states do 
understand ESSA and are fully complying with the law.
    The strong Federal guardrails are in place for one reason, 
to make sure that students do not fall through the cracks. I 
have to say, I have been disappointed to see Secretary DeVos, 
and others, fail to acknowledge that.
    So I know we are going to hear a lot about innovations, 
state innovation today. It is important, but I also hope that 
we can have a robust discussion about all the provisions of the 
law.
    I look forward to hearing from our State Chiefs in front of 
us today, how their states intend to comply with the 
accountability standards in ESSA, and what measures you plan to 
take when a district or school is failing our students.
    So thank you very much, Mr. Chairman, for having this 
hearing. I look forward to this discussion.
    The Chairman. Thank you, Senator Murray.
    I am pleased to welcome our witnesses today.
    First is Dr. Candice McQueen, Tennessee Commissioner of 
Education. She has led the statewide effort to create a plan 
for Tennessee. She has had input from thousands of Tennesseans. 
I have read a lot about that when I am home in the State.
    Prior to becoming Commissioner, she worked as an award 
winning classroom teacher and curriculum designer, and is 
Senior Vice President and Dean of Education at Lipscomb 
University.
    The next witness is Mr. John White, State Superintendent of 
Louisiana. He was named Louisiana State Superintendent of 
Education in January 2012. He has worked to modernize the State 
curriculum in expectation to ensure that every child is on 
track to a college or a professional career.
    He was an English teacher. He has been the Executive 
Director of Teach for America in Chicago and in New Jersey, and 
he was Superintendent of the Louisiana Recovery School District 
in New Orleans and Baton Rouge.
    Mr. Christopher Ruszkowski is the New Mexico Secretary of 
Education. Mr. Ruszkowski began his career as a middle school 
social studies teacher and a basketball coach in Miami before 
working 6 years at the Delaware Department of Education.
    During his time in New Mexico, he has overseen state 
academic priorities, as well as policy and research agenda. In 
2017, he led the co-development of the New Mexico State plan 
for the Every Student Succeeds Act.
    Dr. David Steiner is our final witness. He is at the Johns 
Hopkins Institute of Education Policy and Professor of 
Education. He is a member of the Maryland State Board of 
Education. He has advised policymakers at the U.S. Department 
of Education, the Council of Chief State School Officers, 
Chiefs for Change, and numerous others. He has formerly served 
as New York Commissioner of Education.
    We look forward to your testimony and thank you for being 
here. But I would like to ask if you could summarize your 
testimony in about 5 minutes each, then that would give 
Senators more of a chance to have a conversation with you about 
your testimony and to ask questions.
    So, Dr. McQueen, let us begin with you.

                  STATEMENT OF CANDICE MCQUEEN

    Dr. McQueen. Chairman Alexander, Ranking Member Murray, and 
Members of the Committee.
    Thank you for the opportunity to be here.
    I am Dr. Candice McQueen and I serve as the Education 
Commissioner for the great State of Tennessee. I am honored to 
testify about how states are leading to improve education.
    I have had the opportunity to oversee both the extensive 
stakeholder engagement on our plan to implement the Every 
Student Succeeds Act, and the ultimate development of what, I 
believe, is one of the country's best plans because of how it 
empowers our schools to serve all of our students.
    I want to start by first commending your leadership in 
establishing a law that empowers states and keeps a strong 
focus on equity. In Tennessee, ESSA has allowed us to build on 
what is working in our schools. But through this new law, we 
believe we have the flexibility to do more that is best and 
right for our kids. But it also holds us accountable for 
equitable outcomes in our schools.
    Shortly before you passed ESSA, we announced a new 
strategic plan in Tennessee called Tennessee Succeeds. It set a 
vision and a framework that is aligning districts with our 
state goals.
    We used the flexibility provided in ESSA just a few months 
later to solidify the work in Tennessee Succeeds and to even go 
deeper.
    With our time today, I want to briefly touch on some of 
highlights in Tennessee's ESSA plan.
    First, we are empowering families and expanding students' 
opportunities through our rich accountability systems. We have 
created a dashboard that has a full A-through-F letter grade on 
every metric, and it captures the full picture of a school's 
performance both within the general student population and for 
specific student groups.
    In addition to students' achievement and growth, we also 
look at the rates of chronic absenteeism and out of school 
suspensions, and we highlight and celebrate our English 
learners' performance.
    The metric I am most excited about is the accountability 
system metric called the Ready Graduate Indicator mentioned 
earlier by Chairman Alexander. For the first time, we are able 
to put an innovative new emphasis on the opportunities that 
students have to prepare for their next step after high school.
    The Ready Graduate metric looks at students' access to 
courses like dual enrollment, dual credit, international 
baccalaureate, and A.P., as well as their opportunities to earn 
job ready, high quality, industry aligned certifications, and 
their readiness for the military. This will better enable us to 
ensure that all schools are equipping students for what is next 
after high school.
    Second, we are building on what we learned around school 
improvement in our state. We used the flexibility under ESSA to 
create a multi-tiered continuum that allows us to choose 
evidence-based interventions that make the most sense and meet 
the unique needs of our priority schools, or our bottom 5 
percent schools.
    Additionally under ESSA, we are taking a more nuanced 
approached to how we identify targeted support schools, which 
we call Focus Schools. We will identify Focus Schools based on 
how well each school serves English learners, students with 
disabilities, and economically disadvantaged students, as well 
as the individual performance of all six racial and ethnic 
groups present in Tennessee.
    In addition, we will analyze the performance of a combined 
racial and ethnic subgroup. This allows us to capture an 
additional 43,000 students who would otherwise not be included 
in our accountability system given their small population. If 
schools are not serving any of these student groups well, they 
will receive intense, targeted support.
    I will give you an example of why this combined student 
group is so important in our state.
    We have a school in Benton County, Tennessee in a rural, 
western part of the State. This school has 19 African-American 
students, 11 Hispanic students, and one Native American student 
none of which alone are high enough student counts to include 
any of these students in our accountability system.
    Because of our new approach, this school is now held 
accountable for the performance of these students, 31 students 
across three racial and ethnic groups.
    We will also publicly report the performance of all our 
student groups, every individual racial and ethnic group will 
be on our report card. We believe this approach shines a light 
on the performance of all students and drives a conversation 
about the individual needs of students.
    Third, we are building on a foundation so we can go deeper. 
This fall, we began to use Title II funds to create principal 
residency models to establish more pipelines for aspiring 
school leaders. This is all possible because of how we are 
using Title II funding.
    Finally, we are continuing the conversation in Tennessee 
with our stakeholders. We had a robust stakeholder engagement 
process with multiple loops of feedback. We engaged with 
multiple folks across the State that was ultimately reported 
publicly almost every day, anywhere from being in ``The 
Tennessean'' to the Maryville ``Daily Times''.
    We were making sure folks knew where we were, what we were 
doing, and had opportunities to give feedback in multiple 
settings.
    I want to thank you for crafting a law that recognizes the 
important role that all of us play in supporting our students. 
We have embraced the innovation that ESSA offers in our state, 
and we have used it as an opportunity to ensure that we are 
doing more than ever for every single child.
    Thank you.
    [The prepared statement of Dr. McQueen follows:]
                 Prepared Statement of Candice McQueen
    Chairman Alexander, Ranking Member Murray, and Members of the 
Committee:
    Thank you for the opportunity to be here today. I am Dr. Candice 
McQueen, and I serve as the education commissioner for the great State 
of Tennessee. I am honored to be here to testify with my colleagues 
from Louisiana and New Mexico about how states are leading to improve 
education across the country.
    I have had the opportunity to oversee both the extensive 
stakeholder engagement on our plan to implement the Every Student 
Succeeds Act and the ultimate development of what I believe is one of 
the best ESSA plans in the country because of the way it empowers our 
schools to serve all of our students and meet their individual needs.
    I want to first start by commending your leadership in establishing 
a law that empowers states and keeps a strong focus on equity. ESSA 
will ensure that all students have a chance to receive a world-class 
education from their neighborhood public school. The bipartisan 
leadership of Tennessee's own Sen. Alexander and Sen. Patty Murray on 
the reauthorization of the Elementary and Secondary Education Act is an 
excellent example of how all of us can collaborate on making our public 
systems better for those we serve.
    In Tennessee, ESSA has allowed us to build on what is working in 
our schools and provided the opportunity to maximize our efforts. 
Through this new law, we believe we have the flexibility we need to 
work with stakeholders at the State and local levels to do what is best 
for the kids in Tennessee, and it holds us accountable for the outcomes 
in our schools and how we spend every Federal dollar to achieve an 
equitable education for every child.
    Shortly before you passed ESSA, we announced our new strategic 
plan, which we call Tennessee Succeeds, which set a vision and 
framework for strategic planning within our districts, so they are 
aligned to the goals of the state. We used the flexibility provided in 
ESSA as an opportunity to continue to solidify the work in Tennessee 
Succeeds and go even deeper. Now that we have an approved ESSA plan, 
that deeper work begins. With this background, I want to share with you 
four ways that Tennessee's ESSA plan is empowering innovation and 
equity for our 1 million students.

        <bullet>  First, we are empowering families and expanding 
        students' opportunities through our accountability systems, in 
        particular through ensuring all students are ready for their 
        next steps when they graduate.
        <bullet>  Second, we are building on what we have learned about 
        school improvement and have created a multi-tiered continuum 
        that allows us to tailor the intervention based on the unique 
        needs of that school.
        <bullet>  Third, we are affirming what has shown success in 
        Tennessee while innovating on what we have learned so we can go 
        deeper in key areas--ike better supporting teacher leaders and 
        principals and recruiting a diverse workforce.
        <bullet>  Finally, we are continuing the conversation with 
        Tennesseans and with our stakeholder communities so they are 
        championing our students and collaborating with our schools on 
        implementation.

    Let me share more on each of these.
        1. First, we are empowering families and expanding students' 
        opportunities through our accountability systems, in particular 
        through ensuring all students are ready for their next steps 
        when they graduate.
    We are providing families and community members with easy-to-
understand and transparent information about their neighborhood public 
school, which helps everyone play a role in ensuring we are providing a 
high-quality education for every student that equips them to choose 
their path in life. We are doing that through a dashboard that will 
provide an A-F letter grade on several metrics that capture the fuller 
picture of what is happening at a school. In addition to students' 
achievement and growth, we are looking at their access to and success 
in courses like dual enrollment, dual credit, AP and IB, as well as 
their opportunities to earn job-ready, high-quality industry 
certifications. Because of ESSA, we can now provide a more complete 
picture of students' performance and look beyond a single test score. 
We are also looking at students? opportunity to learn by sharing more 
about chronic absenteeism and out-of-school suspensions. We are 
highlighting our English learners' performance. All of those metrics--
and student subgroups performance on those metrics--encompass the 
overall accountability system for each school.
    Today, I want to talk about one of these metrics in particular. 
While we have always focused on the whole child and rewarded both 
achievement and growth, our new accountability system allows us for the 
first time to put an innovative, new emphasis on the opportunities 
students have to prepare for their next step after high school. We call 
this the Ready Graduate indicator, and it is already changing the 
conversations at the district and school level. We want every school to 
offer a diverse portfolio of early postsecondary opportunities, 
including dual enrollment, dual credit, AP, IB, CLEP, Cambridge 
International Exams, and industry certifications. Early postsecondary 
opportunities allow students to earn college credits while in high 
school, become familiar with postsecondary and industry expectations, 
develop confidence and skills for success after high school, make 
informed postsecondary and career decisions, and decrease the time and 
cost of completing a certificate or degree. Specifically, our data in 
Tennessee shows us that students who have access to these opportunities 
are more likely to be successful after graduation. Our data highlights 
that students who complete at least four early postsecondary 
opportunities look similar to the students who earn at least a 21 on 
the ACT--meaning, they have at least a 50 percent chance of earning at 
least a B in credit-bearing course work in college--and this means less 
remediation, less time to postsecondary completion, and a stronger 
likelihood of success.
    The Ready Graduate indicator captures what it means to equip 
students for life after high school. Students can be deemed ``ready'' 
by meeting any one of four criteria: earning a 21 or higher on the ACT, 
taking four early postsecondary courses, taking two early postsecondary 
courses and earning an industry credential, or taking two early 
postsecondary courses and earning Tennessee's designated score on the 
military entrance exam. Because the Ready Graduate indicator puts a 
focus on ensuring all students have access to a variety of 
opportunities, our district and school leaders are now examining and 
expanding their offerings--and having deeper conversations about which 
students are taking these courses and how to ensure every student has 
access. I believe this will dramatically--and rapidly--create more 
opportunities and more pathways for students in high school.
    We are particularly well-positioned to do this because of the 
strong vision Tennessee has set on having 55 percent of Tennesseans 
equipped with a degree or certificate by 2025. Over the past few years, 
there has been tremendous enthusiasm and alignment across the State to 
help us attain that goal--through nationally celebrated programs that 
expand access to college like Tennessee Promise and Tennessee 
Reconnect, and through deeper connections to industry and the 
workforce. Now, ESSA provides us with an opportunity to further that 
alignment through K-12--so we can make sure that students not only have 
access, but that they also achieve success in postsecondary because of 
the education they have received throughout elementary, middle, and 
high school. The flexibility that ESSA provides allowed us to tailor 
our approach to this goal so we could fully align to our state's 
vision.
        2. Second, we are building on what we have learned about school 
        improvement and have created a multi-tiered continuum that 
        allows us to tailor the intervention based on the unique needs 
        of that school.
    A key change under ESSA is that Congress has empowered state and 
local leaders to find and use the best evidence-based practices for 
each unique school and community context.
    Tennessee has been at the forefront of school improvement for some 
time, which has created a unique opportunity to learn about what 
turnaround efforts are most successful in our schools. With our First 
to the top state legislation and support from subsequent Federal 
grants, we created both the state-run Achievement School District and 
district-led Innovation Zones, which allowed for systemic changes to 
how we support our lowest-performing schools. Tennessee-specific case 
studies have shown us that our most successful turnaround schools have 
a high-performing leader, deep and daily focus on aligning instruction 
to our rigorous academic standards, and attention to school-specific 
wrap-around services that support the variety of students' non-academic 
needs.
    Five years later, the overall performance of our Priority schools 
(those in the bottom 5 percent) has improved, the Shelby County iZone 
and Achievement School District both show bright spots, and the 
Achievement School District this year had the third largest gains in 
the State in its graduation rate. But we also know we have more room 
for improvement, and through our ESSA plan, we are doubling down on our 
focus in this area.
    We are establishing a new office of school improvement that will 
oversee a continuum of various turnaround options and supports. Every 
school in the bottom 5 percent will receive an evidence-based 
intervention, which we are able to uniquely support thanks to the 
Tennessee Department of Education's in-house research team and our 
partnership with Vanderbilt University to create the Tennessee 
Educational Research Alliance. The school improvement continuum also 
provides clear criteria for entrance and exit for each intervention 
track. Depending on a school's unique circumstances and performance, as 
well as the results of our analysis about the root causes and issues at 
play, a school will be placed in an intervention that best meets its 
students' needs. Our ESSA work has created a renewed focus on our 
lowest performing schools across the state, and just simply reinvesting 
time and focus on school improvement over the past year and a half has 
spurred districts to action--even when we are talking about schools 
that have been in need of improvement for over 15 years.
    Additionally, under ESSA, we are taking a more nuanced approach in 
how we identify targeted support schools, which we call Focus schools, 
given that these schools are to be identified specifically because they 
have consistently underperforming student groups. We will identify 
Focus schools based on the individual performance of all six federally 
recognized racial and ethnic groups present in Tennessee, including 
Asian, Black, Hawaiian and Pacific Islander, Hispanic, Native American, 
and White students, provided the student count for the specific racial/
ethnic group meets the n-size of 30. Additionally, we will also analyze 
the performance of a combined racial/ethnic student group that allows 
us to capture an additional 43,000 students who would otherwise not be 
included in our accountability system given their low population at 
their school. We will also look to see how well each school serves 
English learners, students with disabilities, and economically 
disadvantaged students. If they are not serving any one of these 
student groups well, they will receive the most intense, tailored 
support from our office of school improvement.
    It is important to us that we hold our schools accountable for the 
performance of their historically underserved student groups. We have 
included a combined racial/ethnic group given that we have number of 
schools that do not have a sufficient number of students within an 
individual racial/ethnic category to be held accountable for the 
performance of that group alone--but the school still serves a 
significant number of historically underserved students if we look 
across all racial/ethnic groups.
    An example is Camden Junior High in Benton County. There are 31 
total students across three individual racial/ethnic groups, so it can 
be held accountable for all 31 students under the combined group. But 
it only has 19 Black/African-American students, 11 Hispanic students, 
and one Native American student--none of which are high enough counts 
to be included in our accountability system. Because of the combined 
racial/ethnic group, Camden Junior High is now held accountable for the 
performance of these students.
    Overall, there are 212 schools in Tennessee that can be held 
accountable for their Black/African-American students as part of a 
combined racial/ethnic student group but which do not have sufficient 
numbers of students to be eligible for a Black/African-American-only 
subgroup. Additionally, 460 schools can be held accountable for 
Hispanic students as part of a combined group but do not have 
sufficient numbers of students to be eligible for a Hispanic-only 
subgroup. However, we recognize the power that comes in unmasking the 
performance of individual racial/ethnic groups. In addition to 
disaggregating for each racial/ethnic group in identifying targeted 
support schools, we will also publicly report the performance of every 
individual racial/ethnic student group, provided it meets an n-count of 
10. This will equip educators, parents, community members, and 
advocates to hold each school accountable for how they serve every 
child.
    We believe all of these approaches will help to shine a spotlight 
on all students' performance and drive a conversation about the needs 
of individual students, which is our goal, and we are doing more than 
ever to ensure that ALL students, particularly historically underserved 
students, are making progress.
        3. Third, we are affirming what has shown success in Tennessee 
        while innovating on what we have learned so we can go deeper in 
        key areas--like better supporting teacher leaders and 
        principals and recruiting a diverse workforce.
    Our ESSA plan allows us to affirm the importance of the foundation 
of our K-12 education system: high standards, aligned assessments, and 
accountability ensure every student receives a world-class education--
and these are the areas of work that have made Tennessee the fastest 
improving state in the Nation. By doing so, we can unleash our schools' 
creativity and innovation to go further. Under ESSA, districts have 
more funding flexibilities, and we are equipping them with a 
coordinated spending guide to think about how they can maximize their 
resources to invest in their priorities and most effective programs. 
ESSA empowers them to explore blended learning and competency-based 
learning models that will allow them to further personalize learning 
for students, as well as micro-credentials that will allow them to 
personalize learning for educators. Our ESSA plan allows high-
performing districts additional opportunities for innovation through 
our earned autonomy model, which will include incentive grants for 
exemplary districts that would promote expansion of promising practices 
at the local level.
    Additionally, Tennessee's ESSA plan notes how we intend to better 
support our teachers and leaders in new ways, especially through our 
Title II resources. This fall, we announced we will use Title II, Part 
A funds to create principal residency models that establish more 
pipelines for aspiring school leaders to become equipped to effectively 
take the helm. We have also invested in grants for districts to think 
creatively about targeting efforts to recruit and educate teachers in 
high need licensure areas and efforts to improve educator diversity and 
how they will better ensure students have opportunities to learn from 
teachers with a variety of backgrounds, including those like theirs. 
All of this is possible because we have a strong foundation from which 
to build. Ensuring that Title II is fully funded is also critical for 
Tennessee's ESSA plan to be successful, and I am appreciative that the 
Senate Appropriations Committee agreed to maintain funding for Title II 
next year.
        4. Finally, we are continuing the conversation with Tennesseans 
        and with our stakeholder communities so they are championing 
        our students and collaborating with our schools on 
        implementation.
    In developing our ESSA plan, we built on what is working in 
Tennessee and across the country: taking the best ideas from the field, 
utilizing ESSA's new autonomy and flexibility where appropriate, and 
demonstrating how we will move forward in key policy areas. Our 
overarching goal was to develop a state plan through robust stakeholder 
engagement that reflects the great gains made in Tennessee and that 
outlines the path forward under the new law, so there is momentum and 
buy-in across the community that can ensure strong, successful 
implementation.
    Because of the flexibility provided under ESSA, Tennesseans were 
able to provide feedback that could be incorporated into the plan. Over 
the course of a year, we conducted multiple feedback loops with dozens 
of stakeholder groups and thousands of community members, ranging from 
the Governor, the Tennessee State Board of Education, legislators, 
school districts, educators (including district and school 
administrators, principals and school leaders, charter representatives, 
specialized instructional personnel, classroom teachers, librarians, 
special education teachers, and other staff), advocates, state 
department staff, city and county officials, business leaders, parents, 
students, and the public at-large on specific policies.
    We crisscrossed the State to hold dozens of in-person opportunities 
to learn more and share ideas, we established several working groups 
with representatives from every education community to help determine 
the content for key sections, and we provided online webinars and 
surveys ? including surveys in other languages ? to gather more 
feedback. More than 1,000 community members attended our town halls, 
and 2,000 comments were shared online. Representatives from every 
school district provided feedback. We also partnered with key 
community-based and advocacy organizations, like the State 
Collaborative on Reforming Education (SCORE), Conexion Americas, and 
the Tennessee Educational Equity Coalition, to ensure we conducted 
outreach with those communities who have historically been underserved. 
National organizations like the Council of Chief State School Officers 
and Chiefs for Change provided opportunities for us to share our 
experiences and learn from other states, and those forums have allowed 
us to model our successes and highlight Tennessee at the national 
level.
    We continually provided public updates as we revised and refined 
our plan based on thousands of comments, including through creating 
status reports, social media moments, graphics, videos, and handouts, 
and we specifically pointed out how stakeholder feedback was driving 
our plan. Both our stakeholders and department officials conducted 
dozens of interviews with media outlets, so outlets ranging from the 
Tennessean to the Maryville Daily Times were constantly sharing what 
Tennessee is doing through ESSA and highlighting a variety of voices in 
the process.
    Ultimately, we have an education stakeholder community that is 
uniquely engaged, informed, and excited about our ESSA plan. Our 
expectation is for this engagement to continue, and the department is 
actively planning for future opportunities to continue the conversation 
and developing additional resources that will support strong 
implementation. This will be particularly important as we now move 
forward on all of the work I just highlighted--rolling out a new school 
accountability system that provides a clear A-F grade on a variety of 
metrics, providing more early postsecondary opportunities for students, 
turning around our persistently low performing schools, highlighting 
the performance of our student subgroups so we can support them better, 
and empowering districts to go further--and much more. Even better: our 
stakeholders see this as their plan based on their ideas--because it 
is.
    Thank you again for crafting a law that recognizes the important 
role that all of us play in supporting our students. I ask you to 
continue to support the Federal Government's role in ensuring that 
states hold high standards for all students, which is critically 
important to ensuring every student receives an equitable education, 
while also allowing states to have the autonomy to determine what that 
looks like. We have embraced the innovation that ESSA offers us in 
Tennessee--and we have used it as an opportunity to ensure that we are 
doing more than ever for every child.
    Thank you for the opportunity to share our ESSA plan and describe 
how we will use it to continue to build on the success we have 
experienced in Tennessee while never settling but always learning, 
growing, and innovating.

    The Chairman. Thank you, Dr. McQueen.
    I am completely unbiased, but I think Tennessee has led the 
way in a number of areas, and that you have done it again with 
your plan.
    Mr. White, welcome.

                    STATEMENT OF JOHN WHITE

    Mr. White. Thank you, Chairman Alexander, Ranking Member 
Murray, and Members of the Committee.
    Thank you for the opportunity to speak with you today.
    Well before Congress started debate on ESSA, Louisiana 
educators were implementing Louisiana Believes, the states plan 
to put every child on a path to a professional career and a 
college education.
    We brought together childcare, Head Start, and 
prekindergarten into one unified system. We have aligned 
learning standards, curriculum, assessment, and professional 
learning.
    Now, every aspiring educator in our state partakes in a 
yearlong residency, while they are college educated, under the 
mentorship of an experienced educator.
    We provide all graduates a pathway to a funded next step in 
education by expanding early college courses, career, and 
technical courses, and by being the only State in the Nation 
that requires the completion of financial aid forms in order to 
graduate from high school.
    We focus on students stuck in persistently struggling 
schools through efforts like the Recovery School District in 
New Orleans and the Baton Rouge Achievement Zone.
    No state in the Nation made greater progress on the fourth 
grade NAEP most recent administration than did Louisiana. 
Louisiana has climbed to a ranking of tenth among the states 
that use the ACT as its high school assessment. We have 
graduated more students this year than ever before in the 
State's history, and 75 percent of those graduates completed a 
FAFSA indicating their interest in a college education.
    However, those accomplishments should not mask the 
realities of education in our state. Louisiana remains a State 
with an overall low level of educational attainment. Therefore 
the enactment of ESSA provided us an opportunity to develop a 
dialog regarding the most persistent challenges in our state's 
schools.
    Our plan's foundation is the idea of academic mastery. For 
nearly two decades in Louisiana, the State school rating system 
awarded an ``A'' to those schools where the average performance 
is equivalent to a NAEP basic score, a basic command of 
literacy, mathematics, and content knowledge.
    The most fundamental shift, therefore, in our plan is a 
plan to redefine quality, to make an ``A'' equivalent to NAEP 
proficiency, or as we call it, mastery. An ``A'' in Louisiana 
should be an ``A'' in any state in this country.
    Second, we recognized that as our state moved toward higher 
academic expectations, gaps between historically disadvantaged 
student groups and their peers revealed themselves to be larger 
than had previously been understood. Teachers in Louisiana will 
now receive a growth to mastery target indicating the progress 
that each student will have to make in a given year in order to 
be on track to achieve A-level performance.
    Schools also will now receive a free set of online 
formative and diagnostic assessments so that school systems can 
get rid of the wasteful, duplicative, and costly assessments 
that are so pervasive in our schools today.
    Third, we came to grips with the daily inequities that our 
students experience. Our plan, therefore, includes the 
development of an interests and opportunities indicator that 
will indicate the extent to which all schools, including rural 
schools, including schools in our poor urban centers, are 
providing and evaluating their effort at providing courses that 
are too rarely offered to our students.
    Like New Mexico, we also made use of Title I's new direct 
student services provision, which expands the course offerings 
that students experience every day.
    Fourth, we address the reality that a vast number of 
students in our state, predominantly African-American students, 
attend schools that are persistently struggling by any 
definition in any state's plan.
    Using ESSA's evidence requirement as a foundation, we have 
established essential academic conditions that school systems 
applying for Title I funding must meet. For the most 
persistently struggling schools, Louisiana will require the 
support of external and intermediary organizations with proven 
track records or radical school improvement in order to 
drawdown Federal funding.
    Finally, our plan acknowledges that the educator profession 
is being outcompeted for talent by fast growing professions 
that are better compensated, but also similarly require 
bachelor's degrees.
    Using statewide Title II funds, Louisiana's plan includes 
an upward pathway for educators through the profession, but 
also our plan includes a groundbreaking system of evaluating 
and for accountability for institutions, and for programs that 
prepare teachers.
    This system includes a regular, onsite review of 
preparation providers, a measurement of their graduates' 
effectiveness in the classroom, but also incentives for placing 
proven educators in the hardest to staff schools, an often 
under-discussed provision of ESSA.
    Members, I cannot vouch for the quality of planning that 
has occurred in all fifty states, nor can I testify to you that 
Louisiana has yet achieved an education system that is 
excellent, fair, and just for all of its students.
    However, I can testify to you that the progress our state 
has seen to date indicates that a plan that is backed by 
research, that embodies the principles enacted in the world's 
highest achieving education systems, and that is focused on the 
students who most need our attention will yield improvement in 
America's schools. That fact should not be up for debate.
    The question, especially now in this new era of ESSA, is 
the willingness of leaders at every level to make it happen.
    I appreciate greatly, Mr. Chairman, the opportunity to 
share our state's story with you this morning.
    [The prepared statement of Mr. White follows:]
                    Prepared Statement of John White
    Chairman Alexander, Senator Murray, Members of the Committee, I 
thank you for the opportunity to speak with you today. While Louisiana 
is far from having achieved the educational system to which its 
students, educators, and citizens aspire, we are proud of improvements 
we have set in motion and of the accomplishments of our students. The 
Every Student Succeeds Act (ESSA) has provided our state a chance to 
take stock of our greatest challenges and to draw on evidence from 
across the Nation and around the world indicating how they might be 
solved. The children of Louisiana are as smart and as capable as any in 
America. They have been given gifts no lesser than those given to any 
child on this earth. They deserve a plan that calls on us to provide 
all of them an education that is excellent by any standard in the 
world. This is the fundamental premise of Louisiana's ESSA plan.
                           louisiana believes
    Well before Congress started debate on ESSA, educators in Louisiana 
were implementing Louisiana Believes, the State's plan to provide every 
child a path to prosperous future. This plan has five pillars, all 
modeled off of plans and policies in the world's highest achieving 
education systems:
    We have brought together child care, Head Start, and pre-
kindergarten in one unified system of standards, support, 
accountability, and parental choice.
    We have aligned learning standards, curriculum, assessment, and 
professional development in English, mathematics, science and social 
studies, providing students a knowledge-rich classroom experience as 
challenging as any in America. This work in particular has been led by 
6,000 Louisiana Teacher Leaders, all of whom I am proud to call 
colleagues.
    We now also prepare every aspiring educator in our state by way of 
a year-long residency, while they are college seniors, under the 
tutelage of a full-time mentor educator singularly dedicated to the 
resident's development, so that every graduate of our colleges of 
education is validated as an effective teacher before his first day of 
full employment.
    We provide all graduates a pathway to a funded next step in 
education, by expanding Advanced Placement and other early college 
courses, by revitalizing the career and technical system through the 
State's Jump Start initiative, and by becoming the first State in the 
Nation to require that all graduates choose affirmatively whether or 
not to apply for financial aid.
    Finally, we focus on students stuck in persistently struggling 
schools through comprehensive improvement efforts like the Recovery 
School District in New Orleans and the Baton Rouge Achievement Zone, 
and by providing low-income families a wide array of school and course 
choices, all held to comparable standards of academic quality.
    No State in the Nation made greater gains on the most recent 4th 
grade National Assessment of Education Progress in reading than did 
Louisiana. In mathematics, our 4th grade students made the second-
greatest gains. Of the 17 states that administer the ACT to all 
students, Louisiana has climbed far to a rank of 10th, and more 
students graduated high school this year than in any year in the 
State's history. Perhaps most remarkably, of those graduates, more than 
three quarters completed Federal financial aid forms, indicating an 
aspiration to continue their education through workplace training and 
higher learning.
                  community and stakeholder engagement
    These accomplishments should not mask the stark realities in our 
state, however. Louisiana remains a State with low overall relative 
levels of education attainment. If our state is to thrive and to 
compete, we must do more.
    With the enactment of ESSA, therefore, the State Department of 
Education began communicating with the public about the development of 
a State plan that would address the most persistent challenges in our 
state's schools. Beginning in the summer of 2016, we held meetings with 
dozens of school leaders, education associations, business and 
community leaders, civil rights organizations, and advocacy groups to 
start a dialog about our ESSA State plan. We then hosted 13 regional 
public town hall-like meetings around the State, with individuals 
representing more than 200 organizations. In September 2016, in 
response to the feedback we received, we released a draft ESSA 
framework that outlined our state's most pressing challenges and 
opportunities to address them.
    Throughout the subsequent fall and winter, the Department conducted 
another round of statewide meetings. The statewide Accountability 
Commission also held nine lengthy public meetings leading up to the 
drafting of the ESSA State plan to consider detailed accountability 
policy options. Based on stakeholder engagement, collaboration, and 
feedback, we posted for comment a second, more detailed draft ESSA 
framework in February 2017. Later that month we posted for public 
comment a first draft ESSA State plan, and on March 14, 2017, after 
receiving updated guidance from the USDOE about required State plan 
components, we posted a revised draft State plan.
    March 29, 2017, our state board held a special meeting for the 
purpose of considering the draft State plan. During a 7-hour public 
meeting, we received public comment from 115 individuals. The board 
voted to endorse the draft State plan, directing the Department to make 
specific adjustments in response to comment received and to submit the 
plan to the U.S. Department of Education. That plan was ultimately 
approved by the Department in August, and its provisions will be 
considered by the State board for placement into State regulations this 
October, some 18 months after the start of the process.
                   essa: addressing urgent challenges
    The research, inquiry, and dialog that launched Louisiana's plan 
started with a simple question: what are the greatest academic and 
developmental challenges facing students and educators in achieving a 
prosperous future? Our plan is a response to that question and a 
blueprint for how schools will contribute to a solution.
    That plan's foundation is the idea of academic mastery. For nearly 
two decades, our state's school rating system had defined excellence--
an ``A'' rating--as being one in which the average student in a school 
demonstrated ``basic'' command of literacy, mathematics, and content 
knowledge. While those decades saw growth in education attainment of a 
generation of young Louisianans, our system too often perpetuated the 
false promise that a basic body of knowledge, a basic ability to read, 
and basic reasoning skills are adequate to succeed in institutions of 
higher learning or in professions that offer the opportunity for upward 
mobility. The most fundamental and essential shift in our plan, 
therefore, is the difficult but necessary move to redefine an ``A'' 
school in Louisiana as one in which students typically achieve full 
``mastery,'' comparable to NAEP ``proficient,'' making an A-rated 
school in Louisiana an A-rated school in any State, by any measure.
    Second, we recognized that as our state moved toward higher 
academic expectations, gaps between historically disadvantaged student 
groups and their peers revealed themselves to be larger than had been 
previously understood. This required a redoubling of our commitment to 
serving struggling students of all backgrounds. To call educators 
toward serving the most struggling students well, we installed a 
calculation of annual student growth in our school rating system for 
the first time. Teachers in Louisiana will now receive a ``growth to 
mastery'' target for every student, indicating the progress all 
students will have to make in order to be on track to A-level 
performance. Schools may also now use a series of free, online ``check-
up'' tests created by the State and aligned with the State's end-of-
year assessment, allowing teachers and parents to take stock of student 
progress throughout the year, and allowing school systems to dispense 
with wasteful, costly, and misaligned testing. Finally, the State 
established a clear and unambiguous requirement for intervention when 
subgroups of 10 students or more persistently struggle and a framework 
for this process that calls on schools to partner with external 
organizations with track records of results.
    Third, we came to grips with daily inequities in the very courses 
and experiences offered students across our state. Schools play an 
essential role in helping students to develop lifelong interests and 
opportunities. But even today, the options presented to students for 
exploration of the arts, foreign language, advanced coursework, and 
applied education vary widely, in ways unfair to children in rural 
communities and low-income urban settings. Our State plan, therefore, 
includes the development of an Interests and Opportunities index within 
the State's school rating system, evaluating the school's effort at 
providing all students fair access to courses too rarely offered. We 
further made use of the Direct Student Services provision of Title I, 
offering school systems statewide the chance to focus grant funding on 
expanding the course offerings student experience every day, and 
building on Louisiana's nationally recognized Course Access initiative.
    Fourth, we addressed the reality that even today, more than a dozen 
years after the horrible events of Hurricane Katrina, a vast number of 
students, most African-American, attend schools that are persistently 
struggling by any definition. Twelve years ago, nearly half of the 
State's F-rated schools existed in the city of New Orleans. Today that 
figure is under 10 percent, but in their place are struggling schools 
in smaller cities and in remote regions of our state. Our plan to 
address this dire circumstance draws on lessons from research of the 
Nation's most successful efforts at comprehensive school improvement. 
Using ESSA's evidence requirements as a foundation, we have established 
essential academic conditions that school systems applying to the State 
for Title I funding must meet. For persistently struggling schools 
Louisiana will require the support of intermediary organizations, from 
around the State and across the country, with proven track records of 
radical school improvement in diverse situations.
    Finally, our plan acknowledges that the educator profession is 
being outcompeted for talent by fast-growing and better-compensated 
professions that similarly require bachelor's degrees. This competitive 
strain puts schools at a disadvantage and disadvantages students in 
low-income communities, who are least likely to be assigned a proven 
professional educator. Louisiana's plan seeks to restore teaching's 
competitive edge and to professionalize this most noble of professions. 
Using statewide Title II funds now available for training aspiring 
teachers, Louisiana's plan includes a lifelong, upward pathway for 
educators through the profession, including certified and compensated 
undergraduate resident teachers, the certified and compensated mentors 
who develop those residents, content experts who shape schools' 
approaches to curriculum, and school leaders who are proven developers 
of teachers and curriculum. Our plan also includes a groundbreaking 
system of measurement and accountability for institutions that prepare 
teachers, overseen by a newly created research consortium led by our 
colleges of education. This transparent system includes regular onsite 
review of preparation program quality, a measurement of graduates? 
effectiveness in the classroom, and incentives for placing proven 
educators in the hardest-to-staff schools.
                                 ______
                                 
                               conclusion
    I cannot vouch for the quality of planning that has occurred in all 
50 states. Nor can I testify to you that Louisiana has yet achieved an 
education system that is fair, just, and excellent for all of its 
students.
    However, I can testify to you that the progress our state has seen 
to date indicates that a plan that is backed by research, that embodies 
principles enacted in the world's highest achieving education systems, 
and that is focused on the students who most need our attention, will 
yield improvement in America's schools. This should not be up for 
debate. The question, especially now in this new era, is the 
willingness of leaders at every level to make it happen.
    I appreciate greatly the opportunity to share our state's story 
with you today.
                                 ______
                                 

    The Chairman. Thank you, Mr. White. Thank you for coming 
back to testify before the Committee again.
    Mr. White. Yes, sir.
    The Chairman. Mr. Ruszkowski.

              STATEMENT OF CHRISTOPHER RUSZKOWSKI

    Mr. Ruszkowski. Chairman Alexander, Ranking Member Murray, 
and members of the Committee.
    On behalf of Governor Susana Martinez and the parents, 
families, and taxpayers of the State of New Mexico it is 
certainly a privilege and honor to be here today. I wanted to 
extend a nod to my colleagues here as well, who I respect so 
much, and have followed their work over the last several years. 
So thank you for all being here.
    Certainly ESSA provided the flexibility and additional 
authority that many states and Governors have been asking for, 
for many years, but also have included some of the appropriate 
guardrails that we believe need to be in there in terms of 
student equity and student access.
    New Mexico's plan was submitted on behalf of 350,000 
students, 89 districts, 99 charter schools. What it allowed us 
to do was seek out voices that had been traditionally under 
represented, notably parents and families, who have not always 
been at the table in the important conversations about their 
students' lives and about their students' education. Through 
our stakeholder engagement processes, what we have been able to 
do is bring those voices to the forefront through over a 
yearlong process of stakeholder engagement.
    I want to thank organizations like the Collaborative for 
Student Success, Results for America, and the Alliance for 
Excellent Education who have held us to a higher standard than 
simply just the bare minimum of Federal approval.
    For New Mexico, Federal approval is certainly the floor, 
not the ceiling. Our plan, very akin to Louisiana, believes New 
Mexico rising has set a much higher bar. Our bar is here for 
our kids and for our families as we move forward onto this 
plan.
    Akin also to Louisiana and Tennessee, New Mexico has been 
implementing an aggressive plan for improving student 
achievement over the last 6 years, under Governor Martinez and 
under my predecessor, Secretary Skandera that, in many ways, 
made the Every Student Succeeds Act an opportunity to take 
stock, to look back, to reflect on what we have done right, how 
we can improve, and to talk more to our stakeholders.
    Our plan is grounded in four major goals. First and 
foremost our Route to 66 vision which is named after our most 
famous roadway, which articulates that by the year 2030 more 
than 66 percent of our kids will have some sort of 
postsecondary credential in their pocket as they go out into 
the world.
    But in order to get there in the short and medium term, we 
need to have more than half of our kids reading and doing math 
by the year 2020; many fewer of our kids having to take college 
remediation courses. Right now, we are at 43 percent of our 
students are required to take those remedial courses once they 
arrive and having more than 80 percent of our students earn a 
high school diploma.
    I want to talk briefly about stakeholder engagement. We 
worked with an organization called New Mexico First, which was 
founded by the late Senator Pete Domenici and Senator Bingaman, 
which is nonpartisan bringing folks together in a bipartisan 
organization. New Mexico First helped us bring stakeholders to 
the table and helped us activate some of those new voices that 
you heard me talk about before.
    In January, before we even submitted our plan to the U.S. 
Department of Education, we released three responses to 
feedback from our stakeholders; one around revising our teacher 
evaluation system, one around significantly reducing the amount 
of testing time, and one around doing more to champion our 
teacher leaders. So even before we submitted in April, we had 
already begun to respond to that stakeholder feedback.
    When we then submitted in April, we worked with the 
Learning Alliance of New Mexico, University of New Mexico, our 
charter school sector to submit a plan in April. We hosted a 
summit for 1,000 teachers in June where we continued to have 
conversations with our teachers about how we move forward. Then 
we submitted a document both to the Federal Government and to 
our community called New Mexico Rising Together, which 
highlighted the 50 places in which New Mexico had been directly 
responsive to stakeholder feedback.
    We are now traveling the State, visiting our 121 ``A'' 
schools. We also have a school grading system akin to the one 
that Secretary McQueen talked about. We have that school 
grading system in place and we can celebrate those schools and 
those beacons of excellence.
    I think ESSA has created opportunities for us around 
teacher leadership, around innovation within our school grading 
system, around evidence-based approaches to school turnaround, 
like our Principals Pursuing Excellence program that has worked 
with 184 of our lowest performing schools over the last 5 
years.
    Continuing to build on our teacher evaluation system, New 
Mexico Teach, to do more around retention and compensation and, 
of course, direct student services, Mr. Chairman, which you 
mentioned and which Secretary White mentioned, as an 
opportunity to unlock more resources for our kids in our lowest 
performing schools.
    Over the last 5 years, New Mexico has 30,000 more students 
attending ``A'' and ``B'' schools and has more than 15,000 
students achieving proficiency in reading and math. That is due 
to the effort of everyone, from Governor Martinez in Santa Fe, 
to the teacher in Hatch Valley who I met a few weeks ago, to 
the school board members in our northwest corner of Farmington, 
which is one of our fastest rising school districts in the 
State and probably one of our fastest rising school districts 
in the country.
    But I wanted to reiterate here this morning that for New 
Mexico, it has been a 6-year journey, not a 2-year journey that 
a lot of the foundational elements, again, akin to my 
colleagues in Tennessee and Louisiana, the foundational 
elements had been in place for several years. This is an 
opportunity under ESSA to build upon that.
    This is a time now for us to not slow down, but to continue 
to accelerate that. ESSA has certainly embodied and unleashed 
innovation, Mr. Chair, to your points and I want to thank you 
again this morning for having us.
    [The prepared statement of Mr. Ruszkowski follows:]
              Prepared Statement of Christopher Ruszkowski
    Chairman Alexander, Senator Murray, Members of the Committee.
    On behalf of Governor Susanna Martinez, and the students, parents, 
families, educators, and taxpayers of the State of New Mexico, I want 
to extend our appreciation for this invitation to testify today. As a 
former middle social studies teacher and now as Secretary of Education-
Designate for the State of New Mexico, it certainly is an honor to be 
here today representing the Land of Enchantment.
    It is a privilege to be here discussing how the Every Student 
Succeeds Act (ESSA) has captured, catalyzed, and unleashed innovation 
at the State-level, and to speak to the New Mexico story of progress 
and student success. The law has provided additional local authority 
that many Governors, State Chiefs and Education Departments have 
requested over the years, while also maintaining the appropriate 
guardrails and student protections, particularly around issues of 
equity and access, which are needed for us to move forward as a country 
and better prepare students for the economy that lies ahead.
    New Mexico's State Plan was submitted on behalf of our 
approximately 350,000 students statewide, in collaboration with our 89 
public school districts and 99 public charter schools, and is also a 
document that I believe speaks for voices that have been traditionally 
underrepresented in educational planning and policymaking--notably 
parents and families members from across the State who have fully 
entrusted their children's lives in our public school system.
    The NM State Plan has been widely recognized as one of the best in 
the country by independent groups and commissions on both sides of the 
aisle, and I would like to extend our state's appreciation to the 
Collaborative for Student Success & Bellwether Education Partners, the 
Alliance for Excellent Education, Results For America and other leading 
educational organizations that have weighed in with both praise and 
critique in the spirit of advancing student outcomes. For New Mexico, 
as I'm sure is true for my colleagues here, obtaining Federal approval 
was the foundation, but far from the ceiling. Our goal must be to raise 
the bar and catalyze improved outcomes for kids, not to engage in 
compliance exercises. These independent organizations are asking the 
right question: Will this plan significantly improve outcomes for 
children?
    For New Mexico, given the strong State-level leadership that 
Governor Martinez and former Secretary Hanna Skandera have shown since 
2011, putting our kids first was already the norm prior to the bill 
signing in December 2015. Our districts, schools, educators, students, 
and families have risen to the challenge over these past 6 years. Thus, 
the transition to ESSA was an opportunity to take stock of the progress 
that had been made, to conduct an unprecedented statewide stakeholder 
engagement tour, one that continues to this day post-plan approval, and 
to workshop new requirements and opportunities that ESSA presents.
    Before I talk about the year-long statewide listening tour and what 
it has meant for our policies and programs, let me first note how we 
grounded the discussions in how our kids are doing in school, how well 
they are performing, and what our goals are for their future given the 
demands of the 21st century economy. In our state Plan, we outline our 
vision for 2030 and our three big goals for 2020. In traveling the 
state, we asked New Mexicans to keep this vision and goals in mind as 
they addressed the most pressing topics.

        <bullet>  Vision: ``Route to 66.'' Akin to our colleagues in 
        Tennessee, this is a long-term post-secondary attainment goal, 
        aptly named for our most famous roadway, that 66 percent of 
        working age New Mexicans earns a degree or post-secondary 
        credential by 2030.

        TO ACHIEVE THIS VISION, WE HAVE ESTABLISHED THESE AMBITIOUS 
        GOALS:

        1) That more than 50 percent of New Mexico's students are 
        proficient in math & reading by 2020, using the highest of 
        college-ready standards & strongest of college-ready 
        assessments
        2) That more than 80 percent of our students are earning a high 
        school diploma by 2020, and that the diploma is not simply for 
        attending and earning credits, but rather for demonstrating 
        competency
        3) That when our students enroll in higher education, far fewer 
        require remedial coursework--which creates an unfair cost 
        burden for our kids and families after being in our K-12 public 
        system. Our goal is that less than 25 percent of students 
        require remediation by 2020 today that number is 43 percent.

    With each of these goals, I must note how critical it has been to 
have State-level executive and legislative leadership that has closed 
honesty gaps head-on in the years leading up to the passage of ESSA. We 
can now look our students, parents, and educators in the eye and know 
that there is not daylight between what we are telling them about their 
performance and readiness and what college and career readiness 
actually requires. That our assessments measure college readiness in 
reading and math, that our diplomas not be given out without 
demonstration of competency, and, ultimately, that we hold ourselves 
and our schools accountable for year-over-year student academic 
performance AND long-term student academic readiness and attainment.
    Our critical partner in beginning stakeholder engagement last 
summer was an organization called New Mexico First, a nonpartisan 
public policy organization that was founded by the late Senator Pete 
Domenici and former Senator Jeff Bingaman in 1986. NMFIRST helped the 
New Mexico Public Education Department plan, organize, facilitate and 
capture the voices of New Mexicans as part of our New Mexico Rising 
statewide listening tour--where we visited six major communities for 
multiple meetings, conducted online surveys, opened-up new avenues for 
stakeholders to provide input, and ultimately, in January, released, 
both statewide and local, community engagement summaries.
    In January, New Mexico released an initial response to the three 
major themes of that report, which included growing initiatives that 
championing the teaching profession, revising the State's teacher 
evaluation system, and reducing time spent on statewide assessments.
    I must note just how important it was to have the support of local 
and national organizations with expertise in different content areas 
where we were looking to make technical changes to our state plan. As a 
member of the Council of Chief State School Officers (CCSSO) and Chiefs 
for Change, I cannot say enough about the degree to which they helped 
marshal resources, unlock expertise, and facilitate collaboration 
amongst states. I mentioned New Mexico First as our primary State 
partner, but it was the Learning Alliance in New Mexico that 
independently gathered stakeholders and key partner organizations such 
as the University of New Mexico and the Charter School Coalition, and 
delivered a full report that my team drew heavily upon.
    Central to everything was the voice of classroom teachers: Teach 
Plus New Mexico, for example, submitted one of the most thoughtful set 
of policy recommendations I've seen during my time in both Delaware and 
New Mexico, 11 policy recommendations in total...EIGHT were 
incorporated in the NM State Plan, and the others are still being 
workshopped to this day. The Public Education Department directly 
engaged with hundreds of teachers in developing the State Plan, and 
hosted a Teacher Summit for 1,000 teacher-leaders statewide this summer 
where the near-final plan was discussed and improved upon.
    All of this community input was integrated into the Federal 
framework and the strong State foundation when submitting our first 
draft to US Department of Education in April. During the 30-day period 
prior, we posted a draft of the State Plan and solicited further survey 
comment.
    Following that submission, New Mexico posted and shared a document 
entitled New Mexico Rising, Together, which captured fifty things we 
heard thematically during our statewide tour and how we were responding 
directly to those themes. This was a watershed moment for New Mexico, 
and launched the New Mexico Rising, TOGETHER tour--a return tour to 
seven of NM's largest communities that took place in April-May of this 
year.
    Since Governor Martinez appointed me to this post this summer, I've 
committed to visiting and recognizing our 121 schools that earned an 
``A'' during the 2016-17 school year, in direct response to feedback 
from our school boards that we celebrate success and progress and 
capture and share best practices across district and county lines. That 
``NM-True Straight-A Express Tour'' is now at its halfway point. So, in 
large part catalyzed by ESSA, the team at NM-PED has been traveling and 
listening and working with stakeholders almost continuously for the 
past 12-15 months, and we will continue doing so through 
implementation.

    Within the ESSA State Plan, there are scores of compelling 
opportunities that have surfaced throughout this process, including:

        1) Rapidly expanding teacher leadership opportunities. Akin to 
        our colleagues in Louisiana, we have launched multiple new 
        pathways to amplify teacher voice and benefit from the 
        expertise of our great educators.
        2) Innovation within our school grading system, which is now 
        heading into its seventh year. This is a place where NM had 
        already begun to pivot away from No Child Left Behind 
        accountability before much of the rest of the country, and 
        build a system based predominantly on academic growth. In New 
        Mexico, student and family surveys, student attendance, 
        extracurricular activities, and student use of technology have 
        already been incorporated into School Grades. The next frontier 
        involves more stakeholder engagement around other measures of 
        school quality--but NM already has the infrastructure to do so.
        3) Building upon evidence-based approaches in school 
        turnaround, such as our signature program, Principals Pursuing 
        Excellence, which has served 184 historically struggling 
        schools with intensive mentorship and support to principals and 
        is doubling and tripling statewide averages in student growth. 
        The first 124 schools started as C, D, & F schools...almost a 
        third have now become A-Schools.
        4) Bringing new resources and innovation to bear, such as our 
        commitment to Direct Student Services (DSS) under Title I, 
        which will unleash new innovation at the local level for those 
        schools in greatest need. Districts and schools will begin to 
        apply for this funding next month.
        5) Continuing to build upon the state's commitment to educator 
        quality, with our NMTEACH system as the fulcrum of that work, 
        but now expanding into new avenues for teacher recruitment, 
        preparation, compensation, and retention. For New Mexico, 
        reforming Title IIA funding monitoring and accountability has 
        been critical to accelerating these efforts, and member 
        organizations like CCSSO & Chiefs for Change have been sharing 
        best practices in reforming its usage so that every State shows 
        a return-on-investment for those important dollars.
        6) Lastly, and perhaps of greatest importance as we move 
        forward, reaching more parents and families than ever before, 
        through our Family Cabinet, new toolkits and websites, and 
        partnerships with our districts around parent-teacher advisory 
        teams.

    Today, as a result of what ESSA has unleashed, there is broader 
recognition and understanding that significant progress still needs to 
be made in education in New Mexico, and that it won't happen by 
returning to the ways of the 20th Century.

    This past year, New Mexico had 15,000 more students on grade level 
in reading and/or math. That's 15,000 more students and families that 
can be confident their child is on-track for college and career than in 
2015, but it is not enough.
    We have 30,000 more students attending ``A'' & ``B'' schools NOW 
than we did 6 years ago. More students are taking Advanced Placement 
(AP) exams, a number that has increased by 90 percent since 2010, and 
New Mexico has been a national leader with respect to minority 
students--particularly Hispanics--choosing to take their education to 
the next level. But it's not enough.
    It's due to the efforts of so many--from the Governor in Santa Fe 
to the teacher in the Hatch Valley to the parents and School Board in 
the northwest corner in Farmington--to fundamentally change our 
education mindset and actually deliver tangible and measurable results.

    But I want to re-iterate that for New Mexico it has been a 6-year 
journey, not a 2-year journey. We've moved away from one-size-fits-all, 
we've demonstrated return-on-investment to taxpayers through our 
targeted investments, we've increase instructional time, we've expanded 
Pre-K and Advanced Placement access, and we've raised the bar for 
standards and performance.
    To achieve that type of change, ESSA has the power to move the 
system forward across the Nation. But for New Mexico it is the 
leadership of the Governor, our Superintendents, our school leaders and 
our teacher-leaders that have embraced change and gotten results. The 
next frontier is scaling that across every district, every school, 
every day, so that we are able to truly say that in New Mexico, Every 
Student Succeeds.
    In New Mexico, we look to a new idea for our state we ask one 
simple question... ``Will this help our students?'' That simple focus 
continues to focus all of us on our mutual goal. It's been suggested by 
a few that some of our students don't bring skills and assets to our 
schools, perhaps meaning that all this work, and the tireless effort 
from our educators won't make a difference. In New Mexico we have 
rejected that premise--and it's an honor to work alongside people in 
New Mexico who believe that every child can learn at the highest-
levels, and are doing what it takes to make that a reality.
    Our students and families believe in their limitless potential and 
so do we. We will depend on them to ensure the safety, the security and 
the prosperity of New Mexico and of the United States. They are in 
school right now, but the day is fast approaching when their skills 
will be called upon to build the future.
    That is why now is the time to act and to not slow down. ESSA has 
certainly emboldened that urgency and unleashed further innovation in 
New Mexico and set the table for states to take courageous action. It's 
an honor to be here representing the State.
    Thank you again Chairman Alexander, Senator Murray, & Members of 
the Committee, I look forward to your questions.
                                 ______
                                 

    The Chairman. Thank you, Mr. Ruszkowski.
    Dr. Steiner, welcome.

                   STATEMENT OF DAVID STEINER

    Dr. Steiner. Mr. Chairman, thank you, Ranking Member 
Murray, Members of the Committee.
    I appreciate the opportunity to be with you today.
    I direct the Education Policy Center at Johns Hopkins 
University. I also serve on the Maryland Board of Education and 
previously served as Commissioner of Education for New York. 
The opinions I will express are just my own.
    I hope to convey three core messages.
    First, ESSA's promise of flexibility does not provide 
states with a license to fail historically underserved 
students. They are deeply deserving; they are deeply 
underserved.
    Second, ESSA includes several guardrails to support student 
success. While some student plans, such as the three 
represented by their chiefs here today, include very promising 
and highly innovative policy, it is difficult to assert that 
all aspects of approved State plans have fully met ESSA's 
requirements and the spirit of the law.
    Finally, while State leadership is vital, Federal oversight 
of ESSA is critical and required under the law. The promise of 
ESSA was that it would liberate states to craft education 
policy sensitive to the states' different contexts and visions.
    While ESSA does give states back much freedom, the law does 
not give the states the freedom to fail on millions of 
underserved students. There are critical Federal guidelines 
that must not be ignored.
    By fail, I mean drastically reducing students' life 
prospects by providing an education we know to be inadequate. 
If every State had superb educational achievements, and only 
modest achievement gaps, then indeed, it would be a mistake for 
the Federal Government to place constraints on State policies.
    Universal high performance, however, is far from the case.
    An analysis from the National Center for Education 
Statistics found that our lowest performing states managed to 
provide a mathematics education essentially equivalent to those 
in Ukraine, Kazakhstan, and Armenia.
    Because Congress has recognized this reality, you included 
guardrails to ensure that states, districts, and schools were 
held accountable for the performance of all students. You 
empowered and required the Secretary of Education to ensure 
compliance with the law.
    I want to say that in several cases, the Department's 
feedback on ESSA's plans has helped ensure that states meet 
their obligations.
    For instance, some states combine subgroup performance 
together into super-subgroups, thus potentially limiting 
support for the most disadvantaged students. The Department 
appropriately required each subgroup to be included in State 
plans before they were approved.
    In other cases, it is difficult to assert that all aspects 
of approved plans have met the spirit of the law.
    For example, the statute requires states to identify 
schools for targeted support and improvement if one or more 
subgroups is consistently underperforming. Some states have 
defined ``consistently underperforming'' so vaguely as to leave 
us wondering how they will identify them at all.
    A large number of states have conflated ESSA's requirements 
to identify schools for targeted and additionally targeted 
schools into a single definition thereby limiting the number of 
students and schools that will receive support.
    In my judgment, the Department should, in fidelity to ESSA, 
be scrutinizing this issue more closely.
    For students of low income families and students of color, 
ESSA also requires State plans to describe how the State will 
ensure that those students not be served at disproportionate 
rates by ineffective, out of field, or inexperienced teachers.
    All of us know that this is a critical issue, yet this is 
one area where far too many states are offering small, 
piecemeal policies and remedies, at best.
    ESSA requires states to support low performing schools with 
evidence-based practice. Indeed, evidence-based is referenced 
almost 60 times in ESSA. The current Secretary of Education 
removed reference to evidence-based interventions from the ESSA 
State template, thus ending a particular signal.
    Last, under ESSA, states are required to only utilize 
regular high school diplomas to calculate graduation rates. 
Because the ESSA State plan templates do not require states to 
define their singular, regular diploma, different groups of 
students are, in fact, subject to vastly different graduation 
requirements within the same State.
    I encourage continued oversight on the part of the 
Department to these issues.
    Last year, in my own city of Baltimore, over one-third of 
last year's high school graduates received their high school 
diploma having failed the standard State requirements. They 
were given an alternative route, a bridge project that almost 
none of them failed. Maryland, sadly, is not alone in offering 
these diverse pathways with different academic rigor.
    This is why ESSA matters and this is why attention to 
legislative detail matters.
    Thank you, again, for the opportunity to testify.
    [The prepared statement of Dr. Steiner follows:]
                 Prepared Statement of David M. Steiner
    ESSA returns significant educational freedom to the states, but 
this cannot be the freedom to fail historically under-served students--
students who are still not being given an equal opportunity to succeed.
    Some of the U.S. Department of Education's (ED) feedback on State 
plans has effectively ensured that states do meet their ESSA 
obligations. This has been true, for instance, in cases in which states 
had put subgroup performances together into ``super-subgroups''--thus 
potentially limiting support for the most disadvantaged students.
    In other cases of ED approval, it is not clear that the State plans 
meet all the statutory requirements. For example:
        <bullet>  Some states have defined ``consistently 
        underperforming'' so vaguely as to leave us wondering how they 
        will identify them. A larger number of states have conflated 
        ESSA's requirements to identify schools for ``targeted'' and 
        ``additionally targeted'' schools into a single definition, 
        thereby limiting the number of students and schools that will 
        receive support.
        <bullet>  Several approved State ESSA plans do not factor 
        subgroup performance into school ratings.
        <bullet>  State plans are required to describe how each State 
        will ensure that students from low-income families and students 
        of color are not served at disproportionate rates by 
        ineffective, out-of-field, or inexperienced teachers, but 
        several plans give little reason to expect success.
        <bullet>  Districts and states are required to use evidence-
        based interventions to assist low-performing schools, but 
        almost no plans indicate how states will ensure the use of 
        research-based interventions.
        <bullet>  Only 1% of graduating students--namely, those with 
        the most severe cognitive disabilities--are exempt from the 
        requirements a state sets for its ``regular high school 
        diploma,'' yet multiple states are using pathways to graduation 
        for students with disabilities that differ substantially from 
        those embedded in the regular high school diploma.
    By contrast, there are important successes within the ESSA State 
plans that are worth noting. Tennessee, for example, allocates 40 
percent of its index to subgroup performance. New Mexico set aggressive 
academic achievement goals so that every student subgroup will more 
than double its proficiency rate on State assessments within 5 years. 
Louisiana is implementing an innovative college-and career-ready 
school-quality and student-success indicator called the ``strength of 
diploma'' index. These examples highlight the innovative practices that 
ESSA hoped to unleash.
    Unfortunately, examples of substantive innovation are not 
widespread. ESSA preserves an important role for the Secretary to 
oversee state plans and their ongoing implementation, and I encourage 
continued oversight on the part of the Department of Education and this 
Committee.
    Chairman Alexander, Ranking Member Murray, and distinguished 
Members of the Committee, I appreciate the opportunity to testify 
before you today on the Every Student Succeeds Act. My name is David 
Steiner, and I am the Executive Director of the Johns Hopkins Institute 
for Public Policy. I also currently serve on the Maryland State Board 
of Education and previously served as the Commissioner of Education for 
the State of New York. The opinions I express today are my own and do 
not represent the views of Johns Hopkins University or the Maryland 
State Board of Education.
                                 ______
                                 
                          the promise of essa
    The Every Students Succeeds Act (ESSA) is a response to the view 
that the No Child Left Behind (NCLB) Act had been overly prescriptive. 
The promise of ESSA was that it would liberate the states to craft 
educational policy sensitive to their different contexts and visions, 
and to work from empirically strong evidence.
    ESSA thus returns significant educational freedom to the states, 
but this cannot be the freedom to fail historically underserved 
students--thus thew's critical guardrails that must not be ignored.
    By ``fail,'' I mean drastically reducing students' prospects of 
future employment, reasonable earnings, and active citizenship, by 
providing an education we know to be inadequate to those ends. If every 
American State had educational achievements that placed them within the 
top tier of nations across the globe, and merely modest achievement 
gaps between different sub-groups of children, then indeed it would be 
a mistake for the Federal Government to place any constraints on states 
education policies.
    Universal high-performance, however, is far from the case. Our NAEP 
performance (National Assessment of Educational Progress, the gold 
standard in education) is roughly equivalent to where it stood in 
1992.\1\ The spread of educational results across our fifty states is 
significant: our top-performing states match the best systems in the 
world, but our lowest-performing states do not. One analysis from the 
National Center for Education Statistics found that our lowest-
performing states provide a math education equivalent to that of 
Armenia, the Ukraine, and Khazakhstan.\2\ Another study found that, for 
students in the class of 2015, four of our states score below Turkey--
and thirty other industrialized countries.\3\
---------------------------------------------------------------------------
     \1\ National Center on Education Statistics, ``NAEP 2015: 
Mathematics and Reading Assessments on State Level Achievement in 4th 
Grade,'' The Nation's Report Card, n/d, https://
www.nationsreportcard.gov/reading_math7X2015/#mathematics/state/
acl?grade=4.National Center on Education Statistics, ``NAEP 2015: 
Mathematics and Reading Assessments on State Level Achievement in 8th 
Grade,'' The Nation's Report Card, n/d, https://
www.nationsreportcard.gov/reading7Xmath7X2015/#mathematics/state/
acl?grade=8.
     \2\ National Center for Education Statistics, ``U.S. States in a 
Global Context: Results from the 2011 NAEP-TIMSS Linking Study'' 
(Washington DC: Institute of Education Sciences, 2013), https://
nces.ed.gov/nationsreportcard/subject/publications/studies/pdf/
2013460.pdf.
    \3\ Eric A. Hanushek, Paul Peterson, and Ludger Woessman, ``Not 
Just the Problems of Other People's Children: U.S. Student Performance 
in Global Perspective'' (Boston, MA: Harvard's Program on Educational 
Policy and Governance, May 2014), https://sites.hks.harvard.edu/pepg/
PDF/Papers/PEPG14-01_NotJust.pdf.
---------------------------------------------------------------------------
    Moreover, the achievement gap between student subgroups in the 
United States remains tragically large. On the SAT (Scholastic 
Achievement Test), for example, the college-ready achievement gap 
between African American and Hispanic students and White and Asian 
students is staggering.\4\
---------------------------------------------------------------------------
    \4\ Scott Jaschik, ``Scores on New SAT Show Large Gaps by Race and 
Ethnicity,'' Inside Higher Ed, September 27, 2017, https://
www.insidehighered.com/news/2017/09/27/scores-new-sat-show-large-gaps-
race-and-ethnicity.
---------------------------------------------------------------------------
    It is because Congress recognized this reality, that they included 
certain guardrails in ESSA to ensure that states, districts, and 
schools were held accountable for the performance of ALL students.
              essa state plans: shortcomings and successes
    The same learning gaps noted above underline why it is concerning 
that many ESSA plans have been unimaginative and, in some cases, 
worryingly vague about plans for raising the quality of education for 
students with the greatest needs. To cite independent, expert peer 
analysis of State plans compiled by Bellwether Education Partners:

        With the exceptions of New Mexico and Tennessee, states have 
        not yet adequately addressed how they plan to use Federal funds 
        to help increase student achievement, increase options for 
        students, or intervene in chronically low-performing 
        schools.\5\

    \5\ Chad Aldeman, Max Marchitello, and Kaitlin Pennington, ``An 
Independent Review of ESSA State Plans'' (Washington DC: Bellwether 
Education Partners, June 27, 2017), https://s3.amazonaws.com/
online.fliphtml5.com/fncb/lhtf/index.html#p=1.
---------------------------------------------------------------------------
    ESSA requires the Secretary of Education and her staff to chart a 
course between the arguably overly prescriptive Federal interventions 
of the past and signing blank checks to the states. In several cases, 
the U.S. Department of Education (ED) feedback on State ESSA plans 
effectively ensures that states meet their ESSA obligations. This has 
been true, for instance, where states had put subgroup performances 
together into ``super-subgroups''--thus potentially limiting support 
for the most disadvantaged students. ED appropriately required each 
subgroup to be included in State plans pursuant to the law before plans 
were approved.
    In other cases, it is difficult to assert that all aspects of 
approved State plans have met ESSA's requirements. Below are just a few 
examples to illustrate my point:

        <bullet>  First, the statute requires states to establish a 
        definition of ``consistently underperforming'' and to identify 
        schools for targeted support and improvement if one or more 
        subgroups is consistently underperforming (ESSA Sec. 
        1111(c)(4)(C)). Some states have defined ``consistently 
        underperforming'' so vaguely as to leave us wondering how they 
        will identify them. A larger number of states have conflated 
        ESSA's requirements to identify schools for ``targeted'' and 
        ``additionally targeted'' schools into a single definition, 
        thereby limiting the number of students and schools that will 
        receive support. In my judgment, ED should, in fidelity to 
        ESSA, be scrutinizing this issue more closely.
        <bullet>  Second, there is modest emphasis on student subgroup 
        performance in State accountability systems, even though ESSA 
        clearly requires differentiation of schools based on all 
        indicators in a state accountability system for all students 
        and each subgroup of students (ESSA Sec. 1111(c)(4)(C)). 
        Several approved State ESSA plans do not factor subgroup 
        performance into school ratings at all.
        <bullet>  Third, ESSA requires State plans to describe how each 
        State will ensure that students from low-income families and 
        students of color are not served at disproportionate rates by 
        ineffective, out-of-field, or inexperienced teachers (ESSA Sec. 
        1111(g)(1)(B)). Frankly, to meet this critically important 
        target, states would need to completely redesign their teacher 
        pipelines, with important shifts in both the credentialing and 
        funding of the teaching profession. No factor within a school 
        has more impact on student academic performance than teacher 
        quality, and yet this is one area where too many states are 
        offering small, piecemeal policy remedies, at best.
        <bullet>  Fourth, ESSA requires that states must support low-
        performing schools with evidence-based practices (ESSA Sec. 
        1111(d)(1)(B)(ii) and Sec. 1111(d)(2)(B)(ii)).\6\ It is 
        unfortunately true that one can find a study to support almost 
        any potential policy. However, states have the freedom under 
        ESSA to insist that funded responses meet the most rigorous 
        standards of research-based policy, using such resources as the 
        Institute for Education Science's What Works Clearinghouse, the 
        Best Evidence Encyclopedia, and the Evidence for ESSA tool.\7\ 
        Almost all states have, to date, declined to use this lever.
---------------------------------------------------------------------------
    \6\ The Johns Hopkins Institute for Education Policy provided the 
research for Evidence in ESSA: Why it Matters, a report on this subject 
issued by Chiefs for Change. Chiefs for Change, ``ESSA and Evidence: 
Why It Matters'' (Washington, DC: Chiefs for Change, June 2016), http:/
/chiefsforchange.org/wp-content/uploads/2016/07/ESSA-and-Evidence-Why-
It-Matters.pdf.
    \7\ See, for instance, Robert Slavin, ``Evidence for ESSA and the 
What Works Clearinghouse,'' Huffington Post, February 9, 2017, http://
www.huffingtonpost.com/entry/evidence-for-essa-and-the-what-works-
clearinghouse_us_589c7643e4b02bbb1816c369.
---------------------------------------------------------------------------
        <bullet>  Last, under ESSA, only 1 percent of graduating 
        students--namely those with the most severe cognitive 
        disabilities--are exempt from the requirements a state sets for 
        its ``regular high school diploma'' (ESSA Sec. 
        8101(25)(A)(ii)(I)(bb)), yet multiple states are using pathways 
        to graduation for students with disabilities that differ 
        substantially from those embedded in the regular high school 
        diploma. A recent analysis from the Alliance for Excellent 
        Education found that four states had specific diploma pathways 
        for students with disabilities, and 14 states waived or 
        modified graduation requirements for a regular high school 
        diploma for students with disabilities.\8\ More generally, 
        states enable very different paths to what they call a single 
        graduation standard--``a regular diploma.'' Because the ESSA 
        templates do not require states to define the terms in their 
        interpretations of ESSA's phrase, ``a regular diploma that the 
        preponderance of students take,'' states hold different groups 
        of students to wildly different academic standards. In 
        Maryland, for example, a substantial percentage of our most 
        disadvantaged students graduate in large part due to a remedial 
        credit program called the Bridge program, which students almost 
        never fail.\9\

    \8\ M. Almond, Paper Thin? Why All High School Diplomas Are Not 
Created Equal, (Washington, DC: Alliance for Excellent Education, July 
2017), https://all4ed.org/wp-content/uploads/2017/08/DiplomaPathways-8-
30.pdf (accessed September 28, 2017).
    \9\ Division of Curriculum, Research, Assessment, and 
Accountability, ``2015 Assessment Enrollment and Bridge Program'' 
(Baltimore, MD: Maryland State Department of Education, September 
2017). The statewide percentage of diplomas awarded via the Bridge 
program is 11.2%. In Prince George's County, it is 23.4%; in Baltimore 
City, 37%.
---------------------------------------------------------------------------
    Despite these shortcomings, there are important successes within 
the ESSA State plans that are worth noting. Tennessee, for example, 
allocates 40 percent of its index to subgroup performance.\10\ New 
Mexico set aggressive academic achievement goals so that every student 
subgroup will more than double its proficiency rate on State 
assessments within 5 years.\11\ Louisiana is implementing an innovative 
college-and career-ready school-quality and student-success indicator 
called the ``strength of diploma'' index.\12\ These examples highlight 
the innovative practices that ESSA hoped to unleash.
---------------------------------------------------------------------------
    \10\ Tennessee's Approved ESSA Plan, page 85.
    \11\ New Mexico's Approved ESSA Plan, pages 8-9.
    \12\ Louisiana's Approved ESSA Plan, pages 41-42.
---------------------------------------------------------------------------
    Beyond the essential role ED must play in preserving the guardrails 
established by ESSA, it could and should, through guidance and 
continued oversight, encourage states to implement innovative policies 
to improve education. Otherwise, we will continue to hear stories of 
young potential, unachieved. Recently, in my own State of Maryland, a 
young man walked across his high-school stage, having achieved the 
status of high-school valedictorian. He began study at a public 
college, but quickly found the freshman coursework so impossibly 
challenging, that he left college for the streets. Imagine the 
prospects of all those students who graduated with even lower academic 
achievement than this young man.
                                 ______
                                 
                               conclusion
    ED's role in approving State ESSA plans is critical and required by 
law. Given the performance of students and achievement gaps that 
remain, I encourage ED and this Committee to ensure that states comply 
with the statutory requirements: identify schools for improvement and 
support; include student subgroup performance in school ratings; 
redefine the teacher pipeline; implement improvement practices that are 
backed by strong evidence; and work toward granting high-school 
diplomas that truly denote college-and career-readiness.
                                 ______
                                 

    The Chairman. Thank you, Dr. Steiner.
    Senator Young.

                       Statement of Senator Young

    Senator Young. Thank you, Mr. Chairman.
    Mr. White, thanks so much to you and to the other panelists 
for being here today. I wanted to turn to some of the 
innovations you have done in Louisiana with respect to career 
and technical education.
    In my home State of Indiana, we recognize the importance of 
CTE as part of a broader, well-rounded education, and we want 
every Hoosier student to have access, whether it is through a 
charter school or a public school, to these programs.
    So our state plan, which is currently under review, 
emphasizes the diverse needs of all our students and that well-
rounded approach to success.
    In your opinion, and based on your experience, how do 
Career and Technical Education programs set students up for 
success in today's economy? If you could kindly explain the 
importance of preserving and increasing access to these sorts 
of programs, I would appreciate it.
    Mr. White. Well, I think the benefits of quality Career and 
Technical Education are manifold.
    One is motivational.
    Second is the ability to validate that students are leaving 
high school with skills that are transferable into higher 
education, and in some cases directly into the workplace.
    Key--and I think Indiana has done quite a lot of work on 
this--is to make sure that, indeed, the education is verifiable 
and it has not sacrificed essential skills that employers also 
value in literacy, mathematics, and others.
    Not every student needs to take calculus, but every student 
does need to have a fundamental understanding of calculation, 
algebra, and every student needs to be able to read.
    If a student is educated in that way, Career and Technical 
Education can do wonders for creating a diverse skill set that 
allows them to be viable in higher education. The key is 
ensuring that is validated by an industry-based credential and/
or college credit upon graduating.
    If we do that and restore the dignity of Career and 
Technical Education, which has long had a stigma perpetrated 
against it, we can provide great opportunity for many kids.
    Senator Young. So what I am hearing is Career and Technical 
Education has not always been perceived as a rigorous 
discipline. It can be rigorous and embedded within it can be 
essential life skills and areas of knowledge that we can 
instill in these students that decide to go the CTE route.
    That has to be the case, in fact, right?
    Mr. White. Yes, sir.
    Senator Young. Okay. In Indiana, we also, as so many other 
states, are focused on career pathways, making sure that there 
is a direct link between what you are learning and then real 
life experience.
    So we embed in much of our educational curriculum real life 
work experiences and also allow our students to gain industry 
credentials. I know we are increasingly seeing that across the 
country.
    In the 2014-2015 school year, over half of Hoosier students 
concentrating in CTE programs graduated high school with an 
industry credential. Again, that is over half of our students 
that concentrated in CTE programs.
    In your view, what role do these industry credentials 
provide to both our students and the needs of our workforce? Do 
you have any ideas to help increase momentum, as it were, in 
this area?
    Mr. White. Yes. First, industry-based credentials allow us 
to validate the quality of the curriculum, and oftentimes, for 
better and for worse, we have a more rigorous, nationally 
normed validation of career and technical skills whether be it 
in the craft trades, be it in information systems than we do in 
the academic field.
    So first, it allows us to validate that what was taught was 
learned.
    Second, it provides a basis on which students can graduate 
high school and move on, hopefully with college credits. Strong 
industry-based credentials should be transferable into the 
higher education system for credit or into the system of 
employment.
    So it provides all of us comfort that what is taught 
actually is measurable, and second, it provides us a basis for 
economic opportunity for the young person.
    I would encourage industries, especially chambers as well, 
to strengthen the system and to make a more comprehensive 
system of industry-based credentials. Too often, we are using 
credentials that already, by their implementation, are 
outdated.
    We need to work together--the higher education system, the 
K through 12 system, and industry--on ensuring that when we 
have a credential in the system, it truly means that students 
are learning skills applicable to today's day and age.
    Senator Young. We have a very active State-level chamber of 
commerce and local chambers, and I know a number of them are 
already involved in that area, but that strikes me as good 
counsel to take back home.
    I wanted to focus on school improvement. I am almost out of 
time, so I will be submitting a question for the record to each 
of you to discuss some school improvement questions.
    Senator Young. Thank you, again, for being here today.
    The Chairman. Thank you, Senator Young.
    Senator Murray.
    Senator Murray. Well, thank you very much.
    Let me start with you, Dr. Steiner. We heard some testimony 
today from three states that have put forward relatively strong 
plans for ESSA implementation. They all demonstrated a strong 
commitment to improving academic outcomes for our Nation's most 
vulnerable students. These are just three states.
    I wanted to ask you, based on your understanding of other 
states' plans, would you say the other states have put forward 
plans that are as strong as these three that we hear from? If 
not, what are you seeing in those other states' plans that 
concerns you the most?
    Dr. Steiner. So the Chairman was correct in highlighting 
these three states. They are here, rightly, because they are 
exemplary.
    There are problems across other states that are serious. 
Some plans that have been approved do not indicate how subgroup 
performances will even factor into school ratings or the 
criteria by which low performing schools will be exited from 
their improvement status. Some plans are deeply vague about 
consistently underperforming subgroups.
    At least one State does not specify how it will comply with 
the very important 95 percent testing participation requirement 
in the law.
    In multiple State plans, the plans for assisting low 
performing schools lack all specificity and make no mention of 
evidence-based practices. Multiple states use percentile or 
relative rankings of schools in their accountability systems. 
Thus, they are competing against each other, but not being 
judged against any external standard.
    Those are some of the issues.
    Independent, outside groups have generally, looking at all 
of the submitted plans, regarded them as somewhat mediocre.
    Senator Murray. So in ESSA, we created three categories of 
schools for intervention: comprehensive, targeted, and 
additional targeted schools; three of them.
    We felt it was important to create those three distinct 
categories because schools do struggle in different ways and 
need different levels of intervention and support.
    In your review of these State plans, are states meeting 
that core requirement in ESSA, to have those three distinct 
categories?
    Dr. Steiner. This is extremely important because Congress 
quite deliberately chose to define three categories, not two, 
to expand the reach of states to assist underperforming 
students.
    It is unfortunately true that, in the case of several 
states, they are basically using identical definitions for both 
the targeted and the additionally targeted subgroups, thus 
potentially limiting the number of students in schools that are 
likely to receive support.
    Senator Murray. So tell us again why it is important to 
have those three categories?
    Dr. Steiner. So in the comprehensive intervention, it is 
the bottom 5 percent of the Title I schools. That is very 
clear.
    In the additional targeted, if you have a subgroup that is 
performing at the level such that if it were the whole school, 
it would also be in the bottom 5 percent. Then clearly, you 
need to pay attention.
    But ``targeted'' was deliberately chosen as a category by 
Congress to say, ``Look. You may have a school in which the 
subgroup--all of them, one of them--has, for example, 
completely failed to meet a basic reading proficiency. It may 
not match the bottom 5 percent on all the indicators, but a 
parent has the right to be deeply concerned about that 
result.''
    Congress understood that, and therefore designed that 
category.
    Senator Murray. Okay.
    I think that is really important and one of the most 
troubling aspects to me of this implementation so far. 
Unfortunately, the people who suffer here are students.
    Dr. Steiner. Right.
    Senator Murray. Again, the law is not punitive. It is not 
about punishing schools. It is about providing resources to 
support students in those struggling schools.
    So when we do not identify them, as they are required to by 
law, all it means is some kids are being left out.
    Dr. Steiner. Right. Transparency is crucial.
    Senator Murray. Transparency is absolutely critical. So I 
am concerned about that. Thank you.
    Superintendent White, throughout your career, you have 
demonstrated a really strong commitment to improving 
educational opportunities for our Nation's most vulnerable 
students.
    How important is it, in your opinion, for states to 
implement the equity focused guardrails that Congress included 
in this law?
    Mr. White. It is not only extremely important, but I 
believe it is common sense. It is what states should be doing 
irrespective of Congress' mandates.
    Senator Murray. That is pretty clear. Okay. Thank you.
    I just have time for one more and Dr. Steiner, I will just 
go back to you quickly. ESSA is basically a civil rights law. 
It requires the Federal Government to play a key role in the 
oversight of states as they implement ESSA.
    Talk to us about, what are the key guardrails of ESSA that 
the Department needs to be making sure that states adhere to?
    Dr. Steiner. I think it is several, but most importantly, 
first, there has to be a clear definition of ``consistently 
underperforming,'' otherwise we will not reach those students.
    Second, we have to be very, very clear about what 
constitutes the identification of intervention and not to make 
it opaque by excluding subgroups from your accountability 
system. I think those are two of the most important.
    Then third, I am worried about this deep truth about our 
country. That you can call a standard diploma something that 
involves millions of children reaching a very different 
standard through very different routes.
    As I said, I use my own State as an example in Maryland 
where over one-third of the children in Baltimore were given 
the same piece of paper as the standard diploma, but it 
represented something deeply different.
    That is what we mean about transparency. If you allow 
practices like that, you are not promising equality of 
opportunity in the education to all children.
    Senator Murray. Thank you.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you, Senator Murray.
    Dr. Steiner, you said several of the plans that you 
reviewed are mediocre. You are on the Maryland State Board of 
Education.
    Dr. Steiner. Yes.
    The Chairman. Would you include Maryland's plan in that?
    Dr. Steiner. Speaking for myself, Mr. Chairman, I have been 
critical of the plan.
    The Chairman. As has the Governor.
    Dr. Steiner. As, indeed, has the Governor.
    The Chairman. The State legislature put some limits on the 
plan, right?
    Dr. Steiner. They did, indeed.
    The Chairman. Would you recommend the Secretary reject the 
Maryland plan?
    Dr. Steiner. I expect the Secretary to look very closely at 
the plan. I expect the Secretary to maintain the law. I expect 
the Secretary to look particularly at aspects of the plan in 
terms of the State's ability to help students in consistently 
underperforming schools.
    The Secretary has a responsibility to uphold the law and I 
expect her to do so.
    The Chairman. Thank you, Dr. Steiner.
    Mr. White, you mentioned your upward pathway for teachers. 
Tell me a little bit more about that. I tried that as Governor. 
We put in a career ladder for teachers. Ten thousand teachers 
went up the ladder voluntarily; created a big fight with the 
National Education Association at the time.
    What is your upward pathway for teachers like?
    Mr. White. We now certify every college senior who is in a 
college of education, Mr. Chairman, as a certified resident 
educator. They are paid as a resident educator and they are in 
the classroom as a resident teacher under the tutelage of a 
full time, one-to-one mentor-educator who is an effective 
educator on measures like the data----
    The Chairman. Are they being paid more based upon their 
proficiency?
    Mr. White. There is a state minimum that the State will be 
paying each resident. Local districts can pay the residents 
additionally as they see fit, and under the law, full time 
teachers must be paid according to proficiency in the way that 
you describe.
    But the resident is mentored and the mentor role, per your 
point about the latter, is critical. We have developed, based 
on models that exist in Japan or Singapore, for example, a 
whole class of educators called Mentor Educators and a class of 
educators called Content Experts. Both of those, we believe, 
are positions that exalt the teaching profession that allow for 
leadership in our system without having to become----
    The Chairman. Are they paid more than other teachers?
    Mr. White. Yes, sir. They are. They are paid.
    The Chairman. So there is differential pay between the 
mentor and the other teachers.
    Mr. White. Absolutely, and there is a different 
certification for those individuals as well.
    The Chairman. Dr. McQueen, we heard more about tests than 
about anything, I guess, when we were working on the fixing No 
Child Left Behind.
    I described how I personally went from thinking we should 
not even have the 17 tests required to thinking we should have, 
but allow states to determine how to use the results.
    Talk to me a little bit about how factors other than test 
scores are being used to measure a school's performance and a 
school's quality, and why that is good rather than bad.
    Dr. McQueen. In our stakeholder engagement, we heard from 
individuals that represent lots of different organizations, how 
important it was for tests to continue to be part of our 
accountability system.
    We heard that maybe most loudly from teachers who said, 
``It matters that I know, in a summative fashion, where 
students are, whether they are on track or not as they move 
from one content area or grade level to another.'' But we also 
heard, ``We need more information.''
    So the Ready Graduate metric and our Chronically Out of 
School metric both capture other pieces that are not 
necessarily test score driven. The chronically out of school 
metric picks up the chronic absenteeism rates of schools that 
are sometimes masked by the overall attendance rate at a school 
level.
    Then, it also picks up out of school suspensions, and we 
had been noted as a state in several publications over the last 
five or 6 years for one that is, unfortunately, we have too 
high of an out of school suspension rate for African-American 
boys in particular.
    So we are highlighting through our dashboards and how we 
are highlighting different student groups. What is the true 
chronic absenteeism rate? Not just, ``You are not coming to 
school.'' But, ``You are suspending students in certain student 
groups at a very high rate,'' and calling that out 
transparently through that metric.
    We know being in school, whether you are getting an out of 
school excused absence or in school----
    The Chairman. So the suspended student is not counted.
    Dr. McQueen. That is correct. So we count both students who 
are chronically absent, which means they are missing 10 percent 
or more of the school year plus that includes if you are out of 
school for a suspension, you are included in that metric as 
well.
    The Chairman. Mr. Ruszkowski, in New Mexico, what have you 
done in your plan and in your work before to use something 
other than test scores to measure a school's performance and 
quality?
    Mr. Ruszkowski. Mr. Chairman, to Commissioner McQueen's 
point, we also, in New Mexico, over the last 6 years of having 
school grades have utilized student attendance as one of our 
metrics under what we call our Opportunity to Learn Indicator.
    We have also had family and student surveys be a part of 
that indicator as well. Those comprise about 10 percent of an 
elementary school's school grade or a middle school's school 
grade.
    At the high school level, high school graduation rates and 
college and career ready opportunities, such as dual credit, 
Advanced Placement access, students accessing dual credit and 
advanced placement opportunities are also counted for points at 
the high school level.
    The Chairman. Mr. White, I have 30, 40 seconds.
    Going back to my earlier question, how many mentors will 
you eventually have in Louisiana?
    Mr. White. We have 2,000 mentors.
    The Chairman. How much more will they be paid as a result 
of that higher status?
    Mr. White. It is really local. There is local variation. 
The State pays a baseline of $1,000 to $2,000 per mentor per 
year, but then there is, of course, the ability locally.
    The Chairman. So it is a way for the State to pay some and 
then to certify, to find a fair way to identify a teacher who 
might be deserving of higher pay as a way of keeping that 
teacher in the system.
    Mr. White. Yes.
    The Chairman. Rather than going somewhere else.
    Mr. White. Yes, sir.
    The Chairman. That is very helpful.
    Are there other models like that around the country?
    Mr. White. South Dakota has implemented a similar residency 
for every educator, for every aspiring educator. Other than 
that, I am not aware of it.
    But there are great models like the TAP model, for example, 
which is at work in your home State of Tennessee and in ours as 
well that do systemic efforts to promote and compensate in 
accordance the teacher leader role.
    The Chairman. Well, good luck. That is very, very important 
to do.
    Mr. White. Thank you, Chairman.
    The Chairman. Senator Bennet.

                      Statement of Senator Bennet

    Senator Bennet. Thanks, Mr. Chairman.
    I want to thank you for holding this hearing and for having 
such an excellent panel. I am well aware of the work that all 
of you have done and I thank you, too, for your leadership and 
commitment to our kids.
    When I think about the conversations we have here from the 
perspective of a poor child living in America, I think about 
the fact that she is going to arrive in 2017 at kindergarten 
having heard 30 million fewer words than her more affluent 
peers because she has no access to early childhood education in 
general, or to quality early childhood education.
    I think about the kids that are attending K-12 schools that 
no Senator would ever send their child, which is the nature of 
most schools that poor children go to in America in 2017.
    I think about how we have made it so hard for children to 
access higher education and other equivalent pathways just in 
the last generation. The fact that it costs so much more for my 
constituents to send their kids, or to send themselves, to 
public universities in my State.
    I see the achievement results. The 30 million fewer words, 
I mentioned earlier, the fact that our poor children, by the 
time they get to the fourth grade, only one out of five can 
read proficiently.
    If you are born poor in the United States, your chances of 
getting a college degree are roughly 1 in 10.
    I wonder what each of you thinks needs to change about this 
country so that 5 years from now or 10 years from now, that is 
not the reality for poor children living in the United States 
of America.
    I suspect that it has very little to do with what we are 
discussing today, but I would be interested to know your views.
    Why don't we start with Dr. McQueen and just work our way 
down?
    Then if there is time, I would love to ask a question, 
which is, where are we going to get the next million and a half 
teachers we need to teach children in the 21st century in this 
country? But let us put that to one side.
    Dr. McQueen. Thank you, Senator, for the question.
    I think you have hit the nail on the head. I talk a lot 
about how reading is the equity issue of our time and I believe 
that.
    We have students who are coming into our pre-K and 
kindergarten programs with a poverty of language before they 
even start school.
    So that is why the work that we are doing in our state, and 
it is totally focused from a prioritization perspective on that 
early childhood space, will be important to our outcomes.
    We have set a campaign that 75 percent of our third graders 
will be reading on grade level by the end of third grade by 
2025 with higher standards that are now in place.
    The work that we are doing is changing the quality of our 
pre-K programs, as well as looking at what happens before pre-
K.
    We are working across our state government agencies with 
some pilots right now on how do we ensure all of the State 
government agencies that serve kids before they even get into 
school are actually serving them from a literacy perspective 
with the strong foundation because we have teachers that know 
how to teach reading and create those foundations of reading 
before kids become a school age student.
    Senator Bennet. Right.
    Dr. McQueen. At the same time, we are looking at the 
effectiveness of teachers across that pathway with new 
portfolio and data points that will be able to tell us well 
before third grade, which is when State standardized testing 
begins, are kids on track or not?
    I think all of us would agree, we have too many states that 
do not have any data that is of quality before third grade to 
know whether kids are actually on track or not. We are changing 
that in our state.
    We have created a new second grade criterion reference test 
that is totally optional for districts and 120 out of 140 
districts said, ``I want to take that test to make sure I know 
whether kids are on track before that very critical third grade 
benchmark year.''
    So we are using that flexibility to gather better data, to 
give us better information, and to make sure kids have an 
effective pathway that starts even before school starts.
    Senator Bennet. Mr. White.
    Mr. White. Senator, I think there was a time when states 
did not turn to Washington or to national institutions 
necessarily for all guidance on what they need to do in order 
to respond to the challenge of what you are describing.
    Now has to be a time when we get back to that line of 
thinking. We cannot look just to the Federal law for the kind 
of guidance that you are requesting.
    I think, therefore, we have to look at the models in both 
states and countries that have worked. When you look at a state 
like Massachusetts that, for poor and wealthy kids alike, has 
made such dramatic gains, or when you look at countries that 
across their income distribution have had great levels of 
education attainment, certainly then a state like Louisiana and 
most states, you see common principles.
    You see an equitable, and fair, and high quality system of 
early childhood. You see a curriculum that, as Commissioner 
McQueen actually talks about, teaches kids to read because it 
is content-rich.
    You see a teacher preparation system that grounds teachers 
in that curriculum and prepares them in the classroom.
    You see pathways to the middle class as a condition of the 
high school diploma. You see aggressive intervention anytime 
one of those four goes off the rails.
    I do not think this is a particularly complicated thing, 
but it is a long term thing on which you are not going to see 
immediate returns. States need to get back to custom, 
bipartisan policymaking oriented around best practices around 
the world.
    Mr. Ruszkowski. Senator, when I was working for Governor 
Markell in Delaware, one of the things that Senator Carper used 
to say to me when I used to bump into him was, ``Let us find 
out what is working and let us do more of it.''
    I think part of what is happening now in New Mexico that we 
are trying to achieve is we have districts like Farmington, and 
Belen, and Alamogordo, and Gadsden. Those are districts that 
are all over the State. If you are familiar, some of them are 
bordering Colorado and some of them are down in the south 
bordering Mexico.
    Then we have a charter school called Mission Achievement 
and Success, which is right in the heart of Albuquerque. Over 
80 percent Hispanic, over 80 percent low income, right in the 
heart of our biggest urban center.
    These districts and some of these charter schools are 
getting tremendous growth and tremendous gains for their kids. 
One of the things we are talking about right now, Senator, is 
why are the other districts, and the other charter schools not 
knocking down the door of these districts and these charter 
schools that are now proof points of success and saying, ``What 
are you doing here and help us learn?''
    So I would say my simple answer is let us find out what is 
working and let us do more of it.
    Dr. Steiner. Very quickly, Senator.
    Two things matter most: what we teach and how effectively 
teach it. This country takes neither of these things very 
seriously, I am afraid to say.
    On curriculum, we have chaos with the wonderful exception 
of what is going on in a couple of states, including Louisiana, 
where we are privileged to work with the chief.
    Teachers are pulling materials off the Internet the night 
before. We know this from a recent Rand study. We know that 
strong curriculum makes huge differences and yet we are not 
acting on it as a country.
    Second, on teacher quality, again, all over the map. We 
have to get serious about pipelines, about recruitment, about 
quality control for teachers and supporting them with really 
good professional development.
    Senator Bennet. Thank you, Mr. Chairman. I am sorry it went 
over.
    The Chairman. Thank you.
    Senator Whitehouse.

                    Statement of Senator Whitehouse

    Senator Whitehouse. Let me roll right in on the subject of 
curriculum following up on Senator Bennet.
    One of the goals that we had in this Committee in the ESSA 
bill was to lift the load of testing off schools as opposed to 
the testing of students. So that schools were not so terrorized 
to use so much of their class time to teach to those particular 
tests at the price of curriculum like science curriculum, music 
curriculum, civics curriculum, history curriculum, art 
curriculum, and so forth.
    Are any of you seeing any signs of progress?
    Let me start with you, Dr. Steiner, since you raised the 
curriculum problem. Are you seeing signs of a resurgence in 
healthy curriculum in the wake of the relief from the school 
testing?
    Dr. Steiner. Yes, actually. This is one place where 
Maryland is looking directly at opening up time for the arts, 
which is crucial for foreign languages, for science, for social 
studies.
    We know as a Nation based on a lot of research that one of 
the crucial problems about reading, which was talked about 
earlier, is that you cannot be a good reader if you do not have 
a knowledge base. Yet, we are teaching reading skills in the 
absence of those wide curricular, rich curricular backgrounds. 
So the time has to be opened up.
    We did not see a lot in the State plans, frankly, along 
those lines.
    Senator Whitehouse. Okay, so not a big success yet on that.
    The question for everybody, one of the ways in which we 
tried to alleviate the burden of testing of schools was by 
allowing people to go to multiple measures. Some states have 
taken the testing and simply reduced its weighting in an array 
of factors, but that still requires the testing to take place 
and it is still a fairly dominant factor.
    Are any of you aware, or have any of you in your home 
states, driven the school testing out of the schools and found 
satisfactory replacements for it, or is it too early to tell?
    Let us start with Dr. McQueen and head on down the line.
    Dr. McQueen. Well, we drove the conversation through an 
assessment taskforce and an assessment taskforce 2.0. So we 
made this a large stakeholder engagement moment in our state to 
say what is working.
    Senator Whitehouse. What was the result in terms of the 
school test?
    Dr. McQueen. We reduced some tests. We actually reduced 
some duplicative tests in our state and we made some reductions 
at third and fourth grade and the amount of time being spent on 
science and social studies testing.
    Senator Whitehouse. Is there still a school test in most 
schools?
    Dr. McQueen. There is, correct. So we still have----
    Senator Whitehouse. It still goes toward the rating?
    Dr. McQueen. We still have tests and they still count 
toward the ratings, but maybe the most important thing we have 
done is we have made the test worth taking. That is a critical 
point that sometimes gets lost in this conversation.
    These tests that we are now giving actually are more robust 
in telling us better information about readiness. That is 
aligned now to, ``What would you see on an ACT or an SAT?'' As 
opposed to a test that was fairly low level, like we have had, 
I think, in many of our states in the past.
    But the rigor of the standards and the rigor of the 
assessment give you better information about the reality of 
whether you are on track or not.
    Senator Whitehouse. Is it timely?
    In the bad old days, by the time the information came in 
from the school testing, the child was in another grade and the 
whole thing was pointless from a point of view of the well-
being of the child. The whole thing was simply designed to go 
after the schools.
    Dr. McQueen. Sure. So Senator, we are in a transition 
phase. So asking us that question right now is hard----
    Senator Whitehouse. Okay.
    Dr. McQueen [continuing]. because we are transitioning 
through our new test. But absolutely, our goal is to have that 
information back to you while you are actually still able to 
make changes as you go into the next school year.
    Most importantly, I think Louisiana mentioned this earlier, 
what are the formative assessments that you are using that give 
you real time information throughout the school year?
    Senator Whitehouse. Yes.
    Dr. McQueen. That ultimately helps you.
    Senator Whitehouse. My question is, does anybody know of 
anyplace where those other formative assessments have actually 
displaced the school testing?
    Mr. White. Yes.
    Senator Whitehouse. Mr. White.
    Mr. White. Yes, Senator. What the Commissioner mentions is, 
in my view, dead on.
    As teachers, you are inundated too often with district-
made, school-made, and often worst of all, vendor-made 
assessments that not only are wasteful and time consuming, but 
oftentimes do not even give you accurate or consistent 
information.
    Senator Whitehouse. Yes.
    Mr. White. Louisiana has created a formative assessment 
diagnostic and administered two other times throughout the year 
that aligns, for free, with our summit of assessment.
    We have hired consultants to assist--professional 
development companies--to assist our school systems then in 
weeding out all other inaccurate, wasteful, time consuming 
assessments.
    We have to end the culture of assessment, over-assessment, 
but we should not do it at the expense of the 1-percent of 
instructional minutes that is taken up by State assessment 
which, for the civil rights purposes we have talked about this 
morning, are still so important.
    Senator Whitehouse. Yes. I mean, it absolutely is vital 
that the other measures work. The purpose of the exercise is 
not to walk away from these kids and fail to keep track of 
their success.
    But when you are terrorizing a school into limiting its 
curriculum only to what is on some test that came in from 
often, as you said, a vendor out of State, that is hardly 
serving the children, the school, or the community.
    My time has expired. Thank you.
    The Chairman. Thanks, Senator Whitehouse.
    Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you very much, Mr. Chairman.
    I know the focus of this hearing, at least in title, is on 
the question of State innovation. But I think the magic of ESSA 
is that this Committee did a really wonderful job of marrying 
together the ability of states to do more innovation, to 
respect local decisionmaking with a set of guardrails to make 
sure we understand the history of Federal intervention in local 
education.
    Senator Murray said it very clearly. The only reason the 
Federal Government is really involved in education is for civil 
rights purposes because there was a time, and there still are 
times in which there are a set of local, political influences 
that push funds, and resources, and time, and attention to more 
affluent districts and away from poorer districts.
    There are some local traditions that may look innovative, 
but actually are not rooted in what is good for kids. Those 
guardrails are just as important as the innovation. I share Dr. 
Steiner's concern that some of these State plans, while 
certainly innovative, are often ignoring many of the guardrails 
that we put into the law.
    It just so happens that one of those instances that came to 
my attention is from Tennessee. I will just sort of ask you 
about it, Dr. McQueen, and I really do not mean this to be 
antagonistic at all.
    There is a section in ESSA that requires states to answer 
questions about the use of discipline practices and the use of 
what we term in the law, aversive behavioral interventions. 
Tennessee would definitely be a state that we would be 
interested in this information from because it is one of the 
few that still allows for corporal punishment, the paddling of 
students in schools.
    When Tennessee submitted their plan, the Federal Department 
of Education responded by saying that the State plan will need 
to specifically address how the State will support local 
authorities to reduce the use of aversive behavioral 
interventions. Yet, the Department ended up approving 
Tennessee's plan even though this requirement was not included.
    This is something that the State plan is supposed to 
include. Your plan did not include it. Maybe you do not have 
the answer for me, but why was it not in the plan?
    What is Tennessee doing to try to address the requirement 
in ESSA that states try to crack down on what we call aversive 
discipline practices?
    Dr. McQueen. Senator, we do report out what that looks like 
at the local level. The locals do have a reporting process, and 
so, we have knowledge that, quite frankly, we just shared with 
media not too long ago, just a few months ago on what does 
corporal punishment like by local communities.
    There are very few local communities across our state that 
actually still use any form of corporal punishment. It is a 
very small number. But they do have an allowance under the law 
in our state to be able to use that, if they so choose and then 
they report that out.
    What we do is then also report that and make that 
transparent.
    Senator Murphy. But you did not respond to the requirement 
or the suggestion that the Federal Department of Education made 
to include more information about your state policy in your 
state plan.
    Again, I might be getting a little bit too in the weeds 
here, but I guess I am interested to know why that would not be 
included in a state plan for people to look at and to take a 
look at from the outside?
    Dr. McQueen. Sure. Well, we are very clear and transparent 
about what is happening at the local level, and then we can 
pull that up at the State level, and share that. We do feel 
like we have complied with what the law expected.
    Senator Murphy. Thank you, Dr. McQueen.
    Dr. Steiner, I was really concerned about your remarks 
regarding the guidance to states essentially purging any 
reference to evidence-based practices.
    Dr. Steiner. Yes.
    Senator Murphy. That is really curious given how much we 
focused on evidence-based practices, how intentional we were to 
make sure that if you are putting interventions to try to help 
kids out who are underperforming, that it would be evidence-
based.
    What is the effect of the guidance essentially scrubbing 
from the law, not from the law, but scrubbing from the record 
evidence-based practices?
    Dr. Steiner. It is extremely serious because we are talking 
about billions of dollars, and far more importantly, we are 
talking about children's lives here.
    There is a research base. It is available, very easily 
available at the What Works Clearinghouse, at the Best Evidence 
Encyclopedia at my own university for those who will look at 
it. You can find the difference between a reading curriculum 
program that will rescue children from one that does nothing to 
assist them.
    It was very clear in Congress' writing of ESSA that they 
put this front and central. In the original template, the 
reference to evidence-based was explicit and it was removed.
    Now frankly, the signal that that sends to state is, 
``Well, maybe, maybe not. Do not take this too seriously.'' It 
can sound wonkish and coming from a university, I do not want 
to sound overly in the weeds or academic.
    We are talking about real lives here and we are talking 
about the difference between a curriculum or an intervention 
that has major research behind it in multiple instances with 
randomized trials versus a piece of intervention that, frankly, 
is liked by some group of adults in some place and thereby gets 
Federal funding.
    This is not at all, it seems to me, an academic point. This 
is a central point.
    The Chairman. Thank you, Senator Murphy.
    Senator Kaine.

                       Statement of Senator Kaine

    Senator Kaine. Thank you, Mr. Chair.
    Thanks to the witnesses for your service.
    I want to talk about innovation in teaching. I was a mayor, 
and we had about 24,000 kids in the Richmond Public School 
System, a Governor with 1.2 million in the Virginia School 
System. My kids all came through very high poverty schools, and 
got great educations, and are doing fine.
    I became more, over the course of it, particularly after No 
Child Left Behind was initially passed, that there are some 
real disincentives that are perceived by teachers to go into 
schools that are low income schools.
    So many test scores still, on an average basis, equate with 
income that it is harder and harder to get really good teachers 
to say, ``I want to go to that really tough school,'' that is 
less likely to be accredited than the suburban school that is 
higher income kids.
    What do you each do in your jurisdictions, including in 
your role on the Board of Maryland, what do you do to really 
encourage great teachers to go into some of your toughest 
schools?
    Dr. McQueen. I would start by saying, first we support 
them.
    Back to Senator Murphy's comment, we do a lot in our plan 
at the State level to help with restorative justice, classroom 
management. How do you make sure that we have consequences that 
are positive that support students? We are doing that at the 
State level, which ultimately helps support teachers, know what 
to do when they get into sometimes challenging situations. That 
is being led at the State level.
    Maybe most importantly, we make sure that there is 
flexibility for compensation for teachers at the local level 
and we have districts across the State that are taking 
advantage of that flexibility in how they compensate teachers 
at different schools.
    Then third, we have a real focus in our state in making 
sure that teachers know that their growth is being honored 
meaning, what they are doing to grow kids. We do that by 
elevating the percentage of growth in all of our accountability 
models.
    That has been something that we have historically done in 
our state because, to your point, poverty can align very 
closely with achievement, and we have seen that in some of our 
schools.
    You can have a school that is growing and they need to be 
honored for that growth if they are getting kids back on track, 
and you need to elevate that conversation with your teachers as 
well.
    Senator Kaine. Thank you.
    Mr. White.
    Mr. White. Two things, Senator.
    First, we need to change the incentives for providers of 
educator training including colleges of education. We have an 
accountability system, a novel accountability system that 
rewards those schools for placing teachers in low income 
communities.
    Senator Kaine. That is great.
    Mr. White. Rural and urban alike.
    Second, the law that Congress passed, ESSA, allows us the 
opportunity because one research-based practice is to provide a 
child growing up in poverty with a highly effective teacher.
    In Caddo Parish, Louisiana, which is Shreveport, unlike New 
Orleans, unlike Baton Rouge, our reforms go to working with 
their traditional school board, but that traditional school 
board has agreed to pay teachers in the lowest performing 12 
schools in the city, the poorest ZIP Code in the State $15,000 
per year more on average if they are highly effective and agree 
to transfer into those schools.
    That is a research-based practice. It can be used under the 
research-based standard in ESSA and is good evidence of what 
you are describing.
    Senator Kaine. Great. Thank you.
    Mr. Ruszkowski. Senator, very similar to Tennessee and 
Louisiana, certainly a huge emphasis on student academic growth 
in all of our systems, top to bottom. Where do our kids start 
and where do they finish in a year, and not an overemphasis on 
proficiency.
    I think, in fact, in New Mexico, you will find that most of 
our systems weight academic growth much more highly than 
academic proficiency. So I will start there.
    Second, I will concur with Superintendent White on educator 
prep having to play a much more critical role in this, creating 
the incentives for them to place folks in their student 
teaching experience in high need schools under highly effective 
and exemplary teachers and making sure they learn. We have so 
many exemplary teachers that are in our highest needs schools. 
How do we make sure that our teacher prep candidates are 
learning from them?
    Then, last, and again Superintendent White spoke to this in 
an earlier question, having systems and resources available for 
districts to take advantage of for compensation and career 
pathways.
    We have right now about ten districts across the State of 
New Mexico that are taking advantage of additional resources 
that Governor Martinez and the legislature have made available 
so that they can create their own local compensation and career 
pathways.
    Senator Kaine. Dr. Steiner. Maryland.
    Dr. Steiner. Yes, right now we have a system in Maryland 
and elsewhere where essentially the entire profession is geared 
toward not producing excellence. There are fantastic teachers, 
but the system is not geared toward it at any level, at the 
recruitment, or at the training.
    Thank goodness, we have a couple of states here who are 
taking seriously holding schools of education accountable; most 
states do not.
    Third, the mentorship in the first year, our first year 
teachers, not their fault, but they are doing the most damage. 
Only one State so far, Louisiana, is really committed to a 
residency, clinical-based model for all teachers before they 
step into the classroom.
    We would never think of putting a first-time surgeon into 
the operating room alone, but we do this with underprivileged 
children every single day.
    Then we have to have meaningful career ladders where we 
seriously reward professionals for highly professional 
performance.
    Every highest performing country in the world has a 
pipeline that I just described.
    Senator Kaine. Can I just add, if you can nod yes or no?
    Do your states provide bonuses for teachers that get 
national board certification? So one no, and three yeses.
    All right. Thank you, Mr. Chair.
    The Chairman. Thank you, Senator Kaine.
    Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Thanks very much for the panel. We are 
grateful you are here and grateful for your work.
    I live in a state that passed its first public schools law 
in the 1830's and we take public education very seriously. 
Therefore, when we pass legislation that will affect what, in 
our state, is teaching and learning in 500 school districts, 
you can imagine how focused people are on this issue.
    Even in addition to, or I should say, in addition to the 
great work that was done in this Committee led by Senator 
Alexander and Senator Murray in a process that resulted in a 
huge vote for the changes to elementary and secondary 
education, the implementation, of course, will be critical.
    I wanted to focus first, Dr. Steiner, on the Universal 
Design for Learning and in particular in the context of 
children with disabilities.
    I guess my first question on that question of so-called UDL 
in assessments, how would you answer this question? To what 
extent is UDL being included in the State plans that have been 
submitted to date?
    Dr. Steiner. It is very variable.
    We are deeply concerned that Congress' wisdom is shifting 
to keeping states to 1 percent for students with deeply serious 
cognitive disabilities and not over-defining that group. In the 
past, up to 15 percent of students have been given that pathway 
that seriously diminishes their academic opportunities.
    We want the Secretary and the Department to really be 
extremely vigilant and not just as they sign these plans, but 
going on into the future to see the behavior of states. Your 
question really directs us into the future and the answer is: 
we will see.
    I think this shift to the 1 percent is critical. It is not 
just a matter of accounting. The states have to work with all 
of those who give IEP's at the school level so that they 
understand their responsibility to explain to parents the 
consequence of classification, the consequence of being labeled 
in the 1 percent and make sure it is legitimate.
    This is not just a state role in terms of complying with 
the statements of the law. It is a continuing State 
responsibility on behalf of some of our neediest students.
    Senator Casey. I guess more broadly, you would assess how 
the states are doing with regard to students with disabilities 
in what fashion?
    Dr. Steiner. Well, we have to look at the achievement 
rates----
    Senator Casey. Right.
    Dr. Steiner [continuing]. along with our English language 
learning. Students, as you know, the achievement rates are 
tragically low.
    One of the problems has been that we treat millions of 
special needs students as if they are a single category. We 
have not done a good job in our schools of education of 
preparing teachers for the very different needs.
    I speak as someone who is dyslexic. My needs are deeply 
different from a student who is autistic or who is on the 
Asperger's Syndrome.
    It is deeply important that teachers are given the tools 
that they need to work effectively with these students because 
otherwise, if we treat it generically as a single category, 
students will fall through the cracks. All the data shows that 
they are doing so.
    Part of the problem here is that we also give them 
different routes to graduation. I am not talking about those 
with severe cognitive difficulties. I am talking about students 
who may need some accommodation and should get some 
accommodation. But in many states, they are given a standard 
that is well below the standard asked for of other students.
    What kind of message does that send?
    Senator Casey. In terms of the subgroups for both race and 
disability, how would you assess the states in terms of the 
degree of transparency that they have been demonstrating?
    Dr. Steiner. A number of the plans I have read basically 
say, ``We will do better at getting better data. We acknowledge 
that,'' which is a start to acknowledge that the data is not 
really accurate yet.
    In some plans, you see serious percentage differences of 
the effective teachers, for example, or teachers with more 
years of experience teaching those students than students of 
higher income backgrounds. Yet, it seems as if reporting that 
is an end in itself and it cannot be.
    I think the big difference between the strong plans at this 
table and the weak plans that I have seen is there has to be a 
concrete plan of action to remedy those differences. Not just 
to say, ``Well, we give the districts the data and hope that 
they will come up with a plan.''
    Senator Casey. Thanks very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Casey.
    Senator Murray, I think we are about ready to wind up.
    Senator Bennet has a question, if he would like to ask.
    Senator Bennet. Thank you, Mr. Chairman.
    The Chairman. Of course, go ahead.
    Senator Bennet. I appreciate it.
    Again, really tremendous testimony today. Thank you for 
being here.
    In Colorado, we are seeing two different things happening 
with teachers. In the Denver public schools, we have seen 
success with a residency program. It is not as comprehensive as 
the one in Louisiana, but it is becoming more and more 
comprehensive.
    We have also seen that an effort to put paraprofessionals 
on a pathway so that they can get a college degree and they 
can, then, teach in the Denver Public Schools, which, I think, 
is an excellent idea that I had nothing to do with. That if you 
are concerned about diversity in our workforce, which I deeply 
am, that seems like a good spot to try to help some of it.
    On the other hand, there are many districts in our state, 
rural districts, that cannot afford to pay teachers what they 
need to pay in order to attract people. Therefore, we have a 
teacher shortage of something like 2,000 or 3,000 teachers in 
rural Colorado.
    I wonder whether you can address, Tim Kaine asked you 
earlier, about how to attract teachers to high poverty schools. 
My question is, how do we attract teachers to--people to teach 
in this century? What kinds of things are you doing--we have to 
be very brief because this is the second round--to get people 
in and retain people in the classroom or in the districts?
    Dr. McQueen. Thank you for the question.
    As a former Dean of a College of Education and certainly--
--
    Senator Bennet. So you are the problem.
    Dr. McQueen. I am the problem, right. David Steiner and I 
talk about that a lot.
    Dr. Steiner. I was also a Dean, so I am the problem too.
    Dr. McQueen. That is right.
    Our goal was to have an attractive program. To have a 
program that actually was preparing you on day one to be 
effective. That is actually what we are doing now through our 
data systems to ensure that educator preparation programs are 
being held accountable through data, real outcome data around, 
``Are you actually preparing folks for the realities of the 
classroom across multiple measures?'' and then holding those 
programs accountable to those measures.
    Quickly, what we have to do is make the profession 
attractive in terms of elevation of teacher leadership, 
ensuring that there is compensation that matches what you are 
actually being asked to do. Three, we have professional leaning 
communities that continue to engage people over that lifetime 
and lifespan of teaching.
    Those are minimal ways that we should be elevating the 
conversation at the State level.
    Senator Bennet. Thank you.
    Mr. White. I think two things.
    First, states need to take more seriously how the money is 
being invested that they are investing in their workforce and 
look at international norms to see that we are spending not 
enough money on individual teacher's salary. Second, we are 
spending not enough money on the time that teachers spend 
together. With long term planning, states can address that 
issue.
    We issued a report on the rural teacher shortage last week, 
actually, and have a plan moving forward to address it.
    Senator, I am less concerned, in a way, with the rural 
teacher shortage than I am with the sheer volume of people who 
are not receiving adequate preparation and are in front of our 
rural students.
    We can solve that problem by addressing some of the issues 
that you talked about which is substitutes, summer school 
teachers, and paraprofessionals. They are paid educators. They 
are in our schools. They can be trained to be teachers under 
the residency model and we have to find a way to invest the 
dollars that we have to that purpose.
    Mr. Ruszkowski. I think, Senator, one of the things we talk 
about a lot at Teach for Change is, how do we elevate the 
profession overall? I think that is the cultural shift that you 
are speaking to, Senator, here in this 21st century.
    When I sit down with districts and we sort of list all of 
the things they are doing or not doing to do that, generally or 
not, robust and aggressive approaches to teacher recruitment, 
starting with the experience that a teacher has when they go on 
the Website to find a job, or to learn more about the district, 
or learn more about the State.
    There generally are not always strong mentoring programs in 
those first and early years where they are actually matched 
with highly effective and exemplary teachers.
    I will note, because New Mexico has been so committed to 
identifying those exemplary and highly effective teachers, that 
first you have to know who those folks are in order to actually 
match them and, sort of, pair them with those novice folks.
    Then you have to have some of the compensation and career 
pathways things. We learned a lot about this from Tennessee, 
actually, as they have embarked upon that work.
    Dr. Steiner. Very quickly.
    Senator Bennet. Very quick.
    Dr. Steiner. Washington, DC is one of the highest improving 
areas of education in the country. They have a very serious 
policy of rewarding teachers who really are outstanding and 
removing teachers who really should not be in front of our 
students.
    They have managed. They are not a particularly wealthy 
district, but they have managed to get a signal that quality 
counts, and it counts all the time, and that they will reward 
it.
    That is the kind of signal we need across the United 
States.
    Senator Bennet. Thank you, Mr. Chairman.
    Thank you.
    The Chairman. Thank you, Senator Bennet.
    Senator Hassan.

                      Statement of Senator Hassan

    Senator Hassan. Thank you very much, Mr. Chairman.
    Thank you to all of you who are here today.
    In my home State of New Hampshire, we have focused a great 
deal on state flexibility and competency-based assessments and 
we are proud of that work. But obviously, we cannot tip the 
balance so much toward flexibility to, I guess, forego the 
guardrails, is what I am really getting at.
    I wanted to just check in, first, Dr. Steiner. I am proud 
that we have a strong tradition in New Hampshire to ensure that 
individuals who experience disabilities have the support and 
resources they need to be fully included in their communities 
at home, in school, and at work.
    More than 30 years of educational research shows that when 
students with disabilities are educated in the same classroom 
as their peers, those students with disabilities and those 
without do better academically, socially, and behaviorally.
    It has been a major focus of the U.S. Department of 
Education for years and something that Congress reinforced in 
ESSA by requiring states and schools to provide students the 
accommodations they are entitled to, improve the overall 
conditions for learning for all students in the schools, and 
limit the number of children being taught to a lower, 
simplified, alternative standards and tested using the 
alternative assessment. That was major progress in the law.
    My question for you is, how should states be using this 
research in their state plans and is it important?
    Dr. Steiner. It is extremely important in response to an 
earlier Senator's question. I focused on this critical issue of 
not placing students into that alternative assessment who do 
not need to be there.
    While it gives you the same access to content, we know that 
the long term educational opportunities afforded to those 
students will be more diminished.
    Senator Hassan. Yes.
    Dr. Steiner. Therefore, only those who truly need to be in 
that group should be in that group and states need to monitor 
that percent, which Congress restricted to 1 percent because 
all the data shows that it is actually less than 1 percent of 
students who are cognitively impaired at that level.
    This does not stop, as I said earlier, at the moment when 
the Secretary signs the approval.
    Senator Hassan. Right.
    Dr. Steiner. It starts and it should have started a while 
back because some of the states are putting up to 15 percent of 
their students into that group.
    The second point I made, which I think is really important, 
is let us talk about the other special needs students. They are 
often given targets of achievement that are lower than those of 
other students.
    In my old State of New York where I served as Commissioner, 
the regents' score that you require for graduation is a full 10 
points lower on the local diploma and there is just a lack of 
transparency about work like that.
    Let us be honest with ourselves about where we are placing 
these students. Let us make sure we are transparent about the 
data, and let us give the resources that are evidence-based, as 
I mentioned earlier, to the schools and the training to the 
teachers so these students are not left behind.
    Senator Hassan. Well, thank you.
    I take it from that that you would see concerns about the 
plans and the submissions from states that put a large number 
of formerly separately identified subgroups into one super-
subgroup.
    Dr. Steiner. Yes. The Department has pushed back rightly on 
some of those. I think there are still concerns.
    There are still concerns where the vagary of the 
definitions, frankly, are the worry rather than just omission 
and that is why vigilance is important.
    Senator Hassan. Well, thank you. I have another question 
too.
    Dr. Steiner, as you know, ESSA requires that states use 
graduation rates as an indicator.
    Dr. Steiner. Yes.
    Senator Hassan. The law specifies that this rate only 
include cohort graduation rates and not lesser credentials such 
as the GED. Some states have submitted plans that include 
modified diplomas including the GED to determine graduation 
rates.
    Dr. Steiner. Right.
    Senator Hassan. Do you think that undermines ESSA's intent 
for states to measure accurate high school graduation rates?
    Dr. Steiner. Yes, I do and I worry about this very much 
across the country.
    I gave the example of Maryland where I serve, where over 
one-third of the students in Baltimore City are graduating 
thanks to something called the Bridge Project. Meaning they 
failed the modest target of the State assessment and then they 
are put back into a kind of credit recovery that, frankly, 
almost none of them fail.
    This means that the State's report of a graduation rate is 
not transparent. As a Board member, I am going to fight to have 
this changed.
    This is the kind of thing we mean when we say scrutiny of a 
state plan matters.
    Senator Hassan. Yes.
    Dr. Steiner. Right? It is not just words on a page. It is 
about the lives of children.
    Senator Hassan. Thank you very much.
    Thank you, Mr. Chair and Ranking Member Murray.
    The Chairman. Thank you, Senator Hassan.
    Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you, Mr. Chairman.
    Mr. Chairman, I want to ask a question.
    Last year, the Committee held five hearings on the 
implementation of this massive K-12 education, and two of those 
hearings included testimony from the Secretary of Education.
    Does the Committee plan to have the Secretary of Education 
DeVos come in and testify about implementation?
    The Chairman. Senator Warren, as a matter of courtesy, if 
you want to talk to me about Committee business----
    Senator Warren. Okay.
    The Chairman [continuing]. I will be glad to meet with you 
any time in my office.
    I am not here to be questioned by you today.
    Senator Warren. Oh, I am sorry. I was just trying to ask.
    The Chairman. Well, as a matter of courtesy----
    Senator Warren. I apologize.
    The Chairman [continuing]. I am not going to question you.
    Senator Warren. I did not mean to question you. I wanted to 
know if we had a plan to have her in. I just, I thought it was 
important that we had the former Secretary of Education twice 
and I just hoped we were going to do that.
    The Chairman. Well, we could get into a long discussion 
about that, if you would like to, but I would rather do that--I 
have a lot of respect for you--I would rather do that 
privately.
    Senator Warren. Well, we will do it privately then.
    Let me ask a question here.
    Earlier this year, congressional republicans jammed through 
legislation to rollback the rules written by the Obama 
administration to enforce this law. These are the rules that 
help ensure some accountability that the billions of dollars 
that the law sends to the states is actually used to help 
educate our children.
    Unfortunately, the resolution took this very bipartisan 
achievement that everyone had worked on and made implementation 
of this law extremely partisan for no reason that I understand.
    I just have some quick yes or no questions to help me 
understand what happened here.
    Miss Ruszkowski, did you publicly ask Congress to pass this 
resolution? Mister Ruszkowski, I am sorry.
    Mr. Ruszkowski. I do not believe so. No, Senator Warren.
    Senator Warren. Mr. White, did you?
    Mr. White. No, I did not.
    Senator Warren. Miss McQueen, did you?
    Dr. McQueen. No.
    Senator Warren. Dr. Steiner, you are a former State Chief 
of Schools, do you recall if the State Chiefs urged Congress to 
pass this resolution?
    Dr. Steiner. No, they did not, Senator.
    Senator Warren. State education leaders were fine with the 
rules to enforce this law. Teachers were fine with the rule. 
Civil Rights leaders were fine with the rules. Even the chamber 
of commerce thought that rolling back the rules was a bad idea.
    Now, scrapping ESSA accountability rules did not unleash an 
evasion in flexibility. Four congressional republicans took a 
sledgehammer to those rules.
    The conservative education policy think tank, the Fordham 
Institute, identified over 20 provisions in those rules that 
actually provided more flexibility to the states by clarifying 
ambiguous sections in the law.
    Dr. Steiner, can I ask, what do you think is the impact of 
scrapping these accountability rules? What impact has it had on 
the states as they try to implement the law?
    Dr. Steiner. Yes. It produces a lack of clarity, clearly, 
and in some cases it just reduces information.
    For example, under those accountability regulations, states 
were given the assurance that they could count English language 
learners for several years when they became proficient, which 
is an achievement. It seems reasonable to count them, and 
states were told yes.
    Now what are we going to do? What do we know? What do we 
not know?
    I do want to say, Senator, though that the fact that this 
was passed should not be taken as a reason for the Department 
not to be vigilant with the current state law, with ESSA.
    It does not mean that just because those accountability 
provisions in regulation were removed, much as we might regret 
it, that somehow there is a green light for every state plan.
    Senator Warren. Well, I very much appreciate you making 
that point, Mr. Steiner. I agree that even without the 
accountability rules that explain some of the details about how 
to enforce it, the ESSA is not a blank check.
    Dr. Steiner. Right.
    Senator Warren. The key accountability provisions in the 
law that many of us fought hard for are still in the law.
    Dr. Steiner. Yes.
    Senator Warren. I hope we can focus on future 
implementation hearings about how Secretary DeVos is enforcing 
these provisions to ensure that billions of education dollars 
are going to the schools and going to the students that need it 
most.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Warren.
    Senator Cassidy, welcome.

                      Statement of Senator Cassidy

    Senator Cassidy. Thank you.
    John White, thanks for being here. I am sorry I was not 
here, I had a conflict, but I thank you for serving our state. 
You really have been innovative and just willing to break a 
paradigm every now and then, which is kind of a nice thing.
    Dr. Steiner, I am told that you announced in your testimony 
that you are concerned that you are dyslexic.
    Dr. Steiner. Yes.
    Senator Cassidy. My daughter is dyslexic. John White knows 
that this is a passion in my family, and a couple of things. 
Let me get my glasses back on.
    In your testimony, you speak about under ESSA, only 1 
percent of graduating students, those with the most cognitive, 
severe cognitive disabilities, are exempt from requirements the 
state sets for the regular high school diploma.
    One thing I would be concerned about, and again, I keep 
referencing John because John knows these concerns, is that if 
a dyslexic child is typically not identified until second or 
third grade, and has taken a LEAP test, or some sort of 
standardized test in grade four, every other child has learned 
to read--and therefore now reading to learn--but these children 
are still struggling to read. It seems like program failure.
    Dr. Steiner. Yes.
    Senator Cassidy. Now, if 20 percent of the population is 
dyslexic, it is program failure for 20 percent.
    What are your thoughts on that, may I ask?
    Dr. Steiner. Well, if I can be personal for a moment, even 
this morning, I managed to confuse ``undeserved'' with 
``underserved''. That is a classic dyslexic mistake and it is 
partly because, for all its benefits, the British education 
system I initially grew up in did not even recognize dyslexia 
as a category. I was just a terrible speller.
    The deep issue here is that teachers have to be properly 
prepared to identify different kinds of challenges to learners; 
no matter whether it is dyslexia or any one of a number of 
other challenges, cognitive or physical or otherwise.
    Until we do a better job of enabling teachers to have the 
expertise to do that----
    Senator Cassidy. I accept that. But let me just speak again 
specifically.
    If you have tests which are read, and they are going to 
judge a school's success or a child's success, and that reading 
is something which a child, because of that child's particular 
way of learning, is delayed.
    Dr. Steiner. Right, yes.
    Senator Cassidy. It does seem program failure.
    Dr. Steiner. Yes.
    Senator Cassidy. Now granted, we need teachers, and we need 
this, we need that but nonetheless, it does seem program 
failure.
    Dr. Steiner. Yes.
    Senator Cassidy. Would you agree with that?
    Dr. Steiner. Yes, I do.
    Senator Cassidy. Now John, I know you grapple with this in 
Louisiana. I know on a very personal level, and in full 
disclosure, my wife has a public charter school for children 
with dyslexia, and so these are all the children who have 
failed other schools because they cannot read. Now they are in 
this school, which is specific for reading.
    John, can you just kind of speak to our state's kind of 
grappling with this issue. Again, if you take those kids who 
cannot read, and you put them in a test which mandates reading 
in order to measure their success, it is program failure.
    Any comments on how we can address that?
    Mr. White. Well, I think, first, the other Dr. Cassidy's 
school has really inspired us to understand better who is being 
referred to their school in the first place. Unfortunately, as 
your comments refer to, it is eight and 9 year olds, very 
often, who are coming in disproportionate numbers to the 
school.
    The law requires that standardized testing begin in third 
grade and very often it is in third and fourth grade when the 
onset of those tests is coming that Dr. Cassidy's school is 
receiving kids who are referred there.
    I think that calls us, most importantly, to focus on the 
grades before. It is about teacher acumen, but it is also about 
schools having a system that allows for the screening of 
students based on some of the science that backs the model that 
exists at Key Academy in Baton Rouge, and to identify kids, and 
to appropriately address their needs before the onset of 
standardized test.
    Senator Cassidy. But as I gather, and Senator Hassan from 
New Hampshire as Governor instituted this, but as far as I 
know, it is the only state that has done so.
    New Hampshire might be the only state in which there is 
universal screening for dyslexia at grade one, even though the 
research indicates that it can be detected even in the pre-
grade one level because I do not think our state mandates it.
    Should it be a recommendation that we have universal 
screening? Some sort of not very expensive tests, but at least 
kind of find out who we should be addressing? Again, 20 percent 
of the population, so therefore it is going to be a wide net.
    Any thoughts about that?
    Mr. White. I think it should be a necessity that teachers 
in the earliest grades have an instrument that can be used for 
screening and identifying for multiple needs; dyslexia being 
among them.
    Part of the problem is that many states have passed laws 
over the time that mandates specific instruments for specific 
purposes. In Louisiana, it has been the DIBELS Assessment that 
has been used. It is a very specific assessment for a specific 
strand of skills. It is not adequate for diagnosing the full 
range of needs of a child in the early grades, and that needs 
to change.
    I think Tennessee has done a lot of good work on this as 
well.
    Senator Cassidy. Dr. McQueen.
    Dr. McQueen. Let me note that we do have universal 
screening through our Response to Intervention for all of our 
students. Those early students that are coming through our 
program that may have some kind of dyslexic profile. Those are 
picked up through that universal----
    Senator Cassidy. Because the response intervention seems, 
the literature does not seem, in the idealized academic setting 
where you have all the Ph.D.'s focused on one classroom, it 
seems to work and otherwise not. So I say that not to accuse 
but just to explore.
    How is Tennessee's experience different with it? Because, 
again, the literature I have seen just suggests that it just 
does not work.
    Dr. McQueen. Well, I would refer you to a study that just 
came out from Vanderbilt that actually talks about what we are 
doing in Tennessee being unique in terms of the response and 
intervention space.
    Specifically, we have seen some data that we are going to 
be sharing this year that we have fewer students now being 
referred to special education based on what we are doing with 
Response to Intervention.
    We have some really strong programs, particularly in 
elementary school that are changing the trajectory of students 
particularly in the dyslexic space because teachers are being 
trained about how to use that screener data to actually go back 
and make a difference in the classroom.
    That is where this really connects. It is not just about 
screening data and go do something. It is how do you analyze 
what that means across multiple other data points? Then create 
a pathway in the classroom in core instruction plus 
intervention if you need it to make sure that student is back 
on track.
    Senator Cassidy. I am over time. Thank you for your 
indulgence and I would be remiss if I did not say that October 
is Dyslexia Awareness Month. So just also say that.
    The Chairman. Thanks, Senator Cassidy. Thank you for your 
passion on the subject of dyslexia.
    Senator Murray, do you have other questions or comments?
    Senator Murray. Mr. Chairman, I do.
    In the interest of time, I would like to submit them for 
the record and get some responses back. I have some very 
specific questions I want to make sure we get input on.
    Senator Murray. Mr. Chairman, I do want to say it has been 
a really good hearing and I appreciate all this discussion on 
state innovation.
    I do want to just reemphasize that I think the Department 
does need to improve its state plan submission feedback process 
so we know states are complying, and we know what the process 
is, and making sure that the law is being implemented as we 
wrote it.
    Thank you very much.
    The Chairman. Thank you, Senator Murray.
    Dr. McQueen, and Mr. White, and Mr. Ruszkowski the late 
Alex Haley of Tennessee used to say, ``Find the good and 
embrace it,'' and I think that is what we have done today with 
Tennessee, Louisiana, and New Mexico.
    We commend you for your initiative which, as Dr. Steiner 
pointed out, is not just based upon something you cooked up in 
the last few months, but probably, I know, reflects work that 
has been done over the last several years.
    Thanks for setting a good example.
    Dr. Steiner, thanks for your leadership and for your 
perspective today. We appreciate your coming.
    I will make just two closing comments. One, I want to 
encourage Mr. White. Again, I have thought for a long time that 
the Holy Grail is finding more fair ways to pay teachers more 
for teaching well. It is not easy to do. Differential pay is 
hard, but states can afford to do that.
    It is hard to pay all teachers very high salaries, but it 
is possible to pay many teachers significantly higher salaries 
if we can find fair ways to do that. There are various models 
around.
    We started 30 years ago in Tennessee to do it. The 
professional board of teacher standards, and I worked with that 
a little bit. That was some years ago.
    The more state and local efforts we have for programs like 
mentorship or other states, which carry with them some higher 
salary, not just to reflect honor, but to continue to attract 
men and women and keep them in the profession, I think the 
better off we will be.
    On the issue of the regulation that was overturned, just 
without rearguing it, because we have argued it a lot. The 
reason I supported overturning it was because we had specific 
provisions in the law which prohibited the U.S. Department of 
Education from issuing regulations that control the weights of 
indicators that states choose and the strategies that state and 
local school districts use to improve schools.
    We had under the waiver six different ways that states 
could use as models to improve poor performing schools. The 
Government Accountability Office report showed that following 
those models often left schools no better off than they were 
before.
    I was particularly frustrated because I changed the law to 
create a seventh way for states to do it, which would be a way 
that the Governor identified. The next thing I knew, the 
Department had issued a regulation limiting the way a Governor 
could identify it.
    That was part of the classic argument here between whether 
children of low performing schools are likely to be better 
served by orders from Washington or by innovation from home. My 
feeling was the latter and that was the reason for that.
    Thank you, again, for coming.
    The hearing record will remain open for 10 business days. 
Members may submit additional information and questions to our 
witnesses for the record within that time, if they would like.
    Thank you for being here.
    The Committee will stand adjourned.
    [Additional material follows]

                          ADDITIONAL MATERIAL
                          
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Responses by Dr. Candice McQueen to Questions of Senator Murray, and 
                            Senator Franken

                                 ______
                                 
                             senator murray
    Question 1. I have heard concerns about ED's inconsistent 
implementation of ESSA from stakeholders around the country. I would 
like each of you to name one thing that the Department of Education 
could be doing better during the state plan approval process and as the 
implementation process continues.
    Answer 1. Throughout the plan development process, ED, and in 
particular the Office of State Support, offered assistance and 
demonstrated a willingness to provide clarifications and address 
Tennessee's specific questions. This support was focused on the 
components of the plan that were peer reviewed. Subsequently, we were 
contacted separately by individual program leads at ED to provide and/
or request additional information on other sections of the plan, 
including McKinney-Vento and Migrant Education.
    One way in which ED could provide more consistent support for the 
implementation of ESSA would be to host scheduled calls with states to 
address questions or concerns with the aforementioned sections 
collectively--rather than states receiving piecemeal feedback from 
individual offices. In Tennessee's ESSA plan, these components were 
integrated in multiple parts of our plan, and receiving more systematic 
feedback would have been beneficial to Tennessee, as well as for other 
states.
    Additionally, Tennessee would like to commend the OSS as being most 
helpful as we neared the end of the approval process. We appreciated 
their outreach and commitment to moving our plan through the final 
steps of approval.
                            senator franken
    Question 1. To the Panel, foster kids will sometimes change homes 
and schools 10, 11, 12 times-or even more times throughout their 
childhood. Very often, school may be the only constant in a child's 
life. They might have a teacher they love, a sport they play, or club 
they're involved with. Or maybe, maybe they have these things called 
friends. If a kid wants to stay in the same school, he/she should be 
able to.
    That's why I wrote a bipartisan provision with Republican Senator 
Chuck Grassley from Iowa in the new education reform law-the Every 
Student Succeeds Act-to require school districts to work with child 
welfare agencies to make sure that foster children who are changing 
homes are not forced to change schools. After 6 years, I'm pleased that 
we were able to get this done and help foster kids stay in the same 
school if it's in their best interest.
    Now, in ESSA, school districts and child welfare agencies were 
required to collaborate and develop a plan to pay for transportation by 
December 10, 2016. I am concerned about implementation with this 
important requirement that affects our Nation's most vulnerable young 
people.
    Can you please update me on your state's implementation of this 
requirement, including how school districts and child welfare agencies 
are collaborating to pay for transportation for children in foster 
care?
    Answer 1. During the 2016-17 school year, all districts across 
Tennessee were notified on multiple occasions and through multiple 
channels of the changes surrounding children in foster care and 
educational stability requirements. The modes of delivery included 
official memos from the department and several in-person trainings. 
After the initial notification, each district identified its foster 
care point of contact and submitted written procedures for ensuring 
that a child has the opportunity to remain in his or her school of 
origin. These plans were submitted via the department's online planning 
and grants management system as part of the district's consolidated 
application for Federal funds. Tennessee's foster care point of contact 
participated in the review process and approved each district's 
submission.
    Districts were required to include specific procedures within their 
plan for collaborating with the Department of Children Services (DCS) 
to determine how additional transportation costs will be funded. Many 
districts have opted to set aside a portion of their Title I funds to 
cover such costs. Districts were required to indicate this, and the 
corresponding set aside amount, in their funding application which was 
reviewed at multiple levels by TDOE personnel. In addition, in a memo 
sent by the Commissioner of DCS, the child welfare agency agreed to 
provide transportation during the five school days from the time the 
Educational Specialist notifies the LEA's point of contact until the 
Best Interest Determination meeting is held and up to five additional 
days after the meeting.
    Formal monitoring conducted by the Office of Consolidated Planning 
and Monitoring at the TDOE includes an examination of the foster care 
requirements. To date, there have been no findings of non-compliance 
related to foster care. TDOE has also assigned regional consultants 
across the State to support districts in the development and 
implementation of their foster care plans to ensure quality practices 
are utilized. These regional consultants collaborate frequently with 
DCS to provide stability for students in foster care and to ensure 
students receive educational services that are in their best interest. 
Further, the department will be identifying and sharing best practices 
to districts across our state. Tennessee has demonstrated its 
commitment to All Means All in our ESSA state plan, which includes a 
commitment to serve students in foster care.
                                 ______
                                 

Responses by Mr. John White to Questions of Senator Murray, and Senator 
                                Franken

                             senator murray
    Question 1. I have heard concerns about ED's inconsistent 
implementation of ESSA from stakeholders around the country. I would 
like each of you to name one thing that the Department of Education 
could be doing better during the State plan approval process and as the 
implementation process continues.
    Answer 1. The U.S. Department of Education provided Louisiana with 
specific citations from ESSA to support any feedback during the process 
of developing the State plan. This has been helpful to our state in 
ensuring that applications are complete and meet the requirements of 
the law in order to obtain approval. We would encourage this practice 
to continue.
                            senator franken
    Question 1. To the Panel, foster kids will sometimes change homes 
and schools 10, 11, 12 times-or even more times throughout their 
childhood. Very often, school may be the only constant in a child's 
life. They might have a teacher they love, a sport they play, or club 
they're involved with. Or maybe, maybe they have these things called 
friends. If a kid wants to stay in the same school, he/she should be 
able to.
    Answer 1. That's why I wrote a bipartisan provision with Republican 
Senator Chuck Grassley from Iowa in the new education reform law-the 
Every Student Succeeds Act-to require school districts to work with 
child welfare agencies to make sure that foster children who are 
changing homes are not forced to change schools. After 6 years, I'm 
pleased that we were able to get this done and help foster kids stay in 
the same school if it's in their best interest.
    Now, in ESSA, school districts and child welfare agencies were 
required to collaborate and develop a plan to pay for transportation by 
December 10, 2016. I am concerned about implementation with this 
important requirement that affects our Nation's most vulnerable young 
people.
    Can you please update me on your state's implementation of this 
requirement, including how school districts and child welfare agencies 
are collaborating to pay for transportation for children in foster 
care?
    In summer 2016, the Louisiana Department of Education (LDOE) 
appointed a designated Foster Care Point of Contact to work with the 
Louisiana Department of Children and Family Services (DCFS) and local 
education agencies in support of foster care children across Louisiana. 
The two state agencies met several times to review and interpret ESSA, 
draft a data sharing memorandum of understanding, jointly present at 
state educational conferences, and jointly created guidance documents 
for LEAs to better support foster care children as they work to 
implement the new Federal law. That guidance addressed transportation 
plans as well as other decision points that need to be made as foster 
care children transition.
    The LDOE compiled a list of Foster Care Points of Contact for each 
LEA in December 2016 and shared that list with DCFS, which also 
provided to LDOE and LEAs a listing of regional state agency contacts 
for foster care throughout the State. Going forward, in order for LEAs 
to complete their state application for Federal funding each year, they 
will be required to update their foster care point of contact 
information and provide assurance that the LEA has developed, jointly 
with their local DCFS contact, a transportation plan for foster care 
children.
    Attached please find two documents:
      1. Foster Care Educational Stability Overview
      2. Louisiana Transportation Plan Guidance for Foster Care 
Students
    [The following information can be found on pages 54 and 55]
                                 ______
                                 

Responses by Mr. Christopher Ruszkowski to Questions of Senator Murray, 
                          and Senator Franken

                                 ______
                                 
                             senator murray
    Question 1. ESSA contains many Federal guardrails that states must 
comply with to receive Title I funding. To help ensure states meet 
these guardrails, the Department of Education must engage in robust 
monitoring of states' implementation of their ESSA plans. What do you 
think are the most important things for the Department to look at as 
they undertake this monitoring in order to ensure states are meeting 
their obligations under Federal law?
    Answer 1. There will be states that abuse the flexibility that ESSA 
has provided, both short-term and long-term, and notably when 
entrenched special interest groups put state or district leaders in a 
stranglehold on issues of accountability.
    It is a critical function of the U.S. Department of Education to 
ensure that states are meeting both the letter and spirit of the 
Federal law, particularly for states without a strong track record of 
higher standards and meaningful accountability. Without strong 
oversight and monitoring the State Plans submitted and approved by the 
Department could easily fall off-track. USED should closely monitor the 
things we know drive student achievement: school accountability, 
teacher quality, and standards/assessments.
    In the monitoring of all states, the Department should be looking 
to see that each State Plan is being fully implemented with fidelity 
and that student achievement and student growth are on the rise as a 
result. If not, feedback should be given and adjustments made.
    Question 2. I have heard concerns about ED's inconsistent 
implementation of ESSA from stakeholders around the country. I would 
like each of you to name one thing that the Department of Education 
could be doing better during the State plan approval process and as the 
implementation process continues.
    Answer 2. For those of us that have worked I States under multiple 
administrations at the Federal level, the plan approval process felt 
like business as usual. States should see their colleagues at USED as 
co-collaborators. The review and feedback process is par for the 
course-there's always a back-and-forth.
    Given that New Mexico has built a strong foundation over the past 6 
years that goes well beyond the legal requirements of ESSA, our process 
was relatively smooth. The only thing that comes to mind is to have 
received notification directly about our plan feedback before it was 
posted publicly. That said, New Mexico was one of the first states to 
submit a plan and we understand the process has evolved.
    Feedback from USED is important-especially when it pushes states to 
raise the bar for kids. New Mexico believes the feedback received was 
fair and that there were places in our plan that required more 
specificity to fully comply with Federal law. Overall, this feedback 
strengthened our state's plan.
                            senator franken
    Question 1. To the Panel, foster kids will sometimes change homes 
and schools 10, 11, 12 times-or even more times throughout their 
childhood. Very often, school may be the only constant in a child's 
life. They might have a teacher they love, a sport they play, or club 
they're involved with. Or maybe, maybe they have these things called 
friends. If a kid wants to stay in the same school, he/she should be 
able to.
    That's why I wrote a bipartisan provision with Republican Senator 
Chuck Grassley from Iowa in the new education reform law-the Every 
Student Succeeds Act-to require school districts to work with child 
welfare agencies to make sure that foster children who are changing 
homes are not forced to change schools. After 6 years, I'm pleased that 
we were able to get this done and help foster kids stay in the same 
school if it's in their best interest.
    Now, in ESSA, school districts and child welfare agencies were 
required to collaborate and develop a plan to pay for transportation by 
December 10, 2016. I am concerned about implementation with this 
important requirement that affects our Nation's most vulnerable young 
people.
    Can you please update me on your state's implementation of this 
requirement, including how school districts and child welfare agencies 
are collaborating to pay for transportation for children in foster 
care?
    Answer 1. The New Mexico Public Education Department (PED) and New 
Mexico's Child Welfare Agency, Children, Youth and Families Department 
(CYFD) collaboratively developed a best interest determination (BID) 
process and form to be utilized by the schools and CYFD when making the 
BID regarding the student's school of origin.
    The BID addresses transportation and CYFD will be the final 
decisionmaker. Consequently, if the disagreement cannot be resolved at 
the local level, the PED has drafted guidelines for foster parent(s) 
regarding the dispute resolution process for resolving differences, 
including transportation.
    During the state's 2017 legislative session, the state passed 
legislation to allow school districts to utilize SUVs to transport 
students to and from school. The State issued an emergency rule to 
allow this process to begin immediately and is updating the state 
regulation to incorporate the provisions regarding students in foster 
care and the dispute resolution process. The final rule is set to be in 
place in December 2017.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. David Steiner to Questions of Senator Murray, Senator 
                       Franken, and Senator Kaine

                                 ______
                                 
                             senator murray
    Question 1. I have heard concerns about ED's inconsistent 
implementation of ESSA from stakeholders around the country. I would 
like each of you to name one thing that the Department of Education 
could be doing better during the State plan approval process and as the 
implementation process continues.

    Answer 1. ED needs to scrutinize states' definitions of 
``consistently underperforming'' and ``additional targeted schools'' 
much more carefully. ED must ensure that each subgroup is included in 
these definitions, and ED must ensure that states have clear and 
distinct definitions of each term.

    For your reference, here are examples of State definitions of 
``consistently underperforming'' that should not have been approved:

    <bullet>  Arizona: Arizona states that consistently underperforming 
is defined as a school with ``one or more significant achievement gaps 
between subgroups and any low-achieving subgroups for three consecutive 
years.'' ``Significant achievement gaps'' is not defined nor is ``low-
achieving.'' Therefore, it is not clear when a subgroup will be 
identified as ``consistently underperforming'' (AZ Approved ESSA Plan,. 
page 37).

    <bullet>  Massachusetts: Massachusetts states that ``a school will 
be identified if it has one or more of the lowest performing subgroups 
in the State over multiple years.'' ``Lowest performing subgroups'' are 
not defined, nor is ``over multiple years.'' Therefore, it is not clear 
when a subgroup will be identified as ``consistently underperforming'' 
(MA Approved ESSA Plan, page 62).

                            senator franken

    Question 1. To the Panel, foster kids will sometimes change homes 
and schools 10, 11, 12 times-or even more times throughout their 
childhood. Very often, school may be the only constant in a child's 
life. They might have a teacher they love, a sport they play, or club 
they're involved with. Or maybe, maybe they have these things called 
friends. If a kid wants to stay in the same school, he/she should be 
able to.

    That's why I wrote a bipartisan provision with Republican Senator 
Chuck Grassley from Iowa in the new education reform law-the Every 
Student Succeeds Act-to require school districts to work with child 
welfare agencies to make sure that foster children who are changing 
homes are not forced to change schools. After 6 years, I'm pleased that 
we were able to get this done and help foster kids stay in the same 
school if it's in their best interest.

    Now, in ESSA, school districts and child welfare agencies were 
required to collaborate and develop a plan to pay for transportation by 
December 10, 2016. I am concerned about implementation with this 
important requirement that affects our Nation's most vulnerable young 
people.

    Can you please update me on your state's implementation of this 
requirement, including how school districts and child welfare agencies 
are collaborating to pay for transportation for children in foster 
care?

    Answer 1. The following is the response of the Maryland State 
Department of Education to your question:

    Under the Every Student Succeeds Act (ESSA), Maryland is one of 
four (4) states considered to be a `covered' State by the Federal 
Government because Maryland already had a regulation in place covering 
children ``awaiting foster care placement.'' As a covered State, 
Maryland is allowed until December 10, 2017 to implement the 
requirements of ESSA for foster care children.

    This past year, collaboration among the Maryland Department of 
Human Services (MDHS), the Maryland State Department of Education 
(MSDE), Local Education Agencies (LEAs) and Local Departments of Social 
Services (LDSS) has been extensive. During this period, many meetings, 
phone conversations, and conferences have been held with the DHS, the 
MSDE, and the Office of the Attorney General in the development of an 
educational stability interagency agreement template, best interest 
determination form template, and transportation plan form template. 
These templates are to be used between the LEAs and the LDSSs to 
determine the best transportation plan and best interest form for 
foster children.

    The MSDE is working with the LEAs and the LDSSs to facilitate these 
agreements. Specifically, two of three Regional Conferences have been 
held with LEA Directors of Student Services, LEA Foster Care Liaisons, 
LEA Transportation representatives, LDSS Directors, LDSS Foster Care 
Points of Contact, and other LDSS representatives to review and explain 
the agreement template and accompanying documents. The third Regional 
Conference is scheduled for November 9, 2017 in Washington County.

    In addition, the MSDE staff are presenting information on these 
templates to individual groups of interest. For example, on October 25, 
2017 a presentation was made to the Maryland Supervisors of School 
Counseling to present information on the agreement template, best 
interest form template, and transportation form template for use with 
the LEA and LDSS. This information will also be presented at the 
Maryland Directors of Student Services on November 7, 2017.

    Attached is a copy of the three templates as well as the schedule 
of regional meetings.
                             senator kaine
    <bullet>  According to the biennial Civil Rights Data Collection 
(CRDC), approximately 2.8 million students received one or more out of 
school suspensions from public schools in the 2013-14 schoolyear.
    <bullet>  African American students and students with disabilities 
are more likely to be subjected to exclusionary measures than their 
same age peers for relatively minor, non-violent offenses. Suspended 
students are at a significantly greater risk of academic failure, 
dropping out, and becoming involved in the justice system. These 
discipline practices also harm school climate and safety.
    <bullet>  Despite this knowledge, many public schools continue to 
suspend and expel students of color and students with disabilities at 
alarmingly disproportionate rates.
    <bullet>  Through inclusion of provisions in Title I-A of ESSA, 
State educational agencies are, for the first time, required by Federal 
law to describe in their Title I State plan, how they will support 
local education agencies to ``improve school conditions for student 
learning including through reducing--(i) incidences of bullying and 
harassment; (ii) the overuse of discipline practices that remove 
students from the classroom; and (iii) the use of aversive behavioral 
interventions that compromise student health and safety.
    <bullet>  In spite of these statutory requirements to address 
school conditions, many approved State plans have been vague in how 
they plan to reduce exclusionary discipline practices and improve 
school conditions. More specifically, of the 15 approved plans, less 
than half adequately met the requirements of language guidance. I sent 
a letter with Congressman McEachin and 62 of my colleagues to Secretary 
DeVos expressing concern and the need to ensure states provide high-
quality descriptions of how they will reduce of the use of exclusionary 
discipline practices in their plans.

    Question 1. What impact do you believe this will have on student 
learning and life outcomes for those in states without a concrete plan 
in place?

    Answer 1. State and local efforts to support systems of continuous 
improvement for all students, particularly those who have been 
historically underserved, will be significantly hampered without a 
concrete plan in place to reduce the overuse and disparate use of 
exclusionary discipline policies. This includes plans to make the 
necessary changes in State and local policy, practices, and training 
for educators and others who come into contact with students, such as 
school resource officers.

    Research clearly demonstrates that the overuse and disparate use of 
suspensions and expulsions, encouraged by zero-tolerance policies and 
evidenced by the referenced CRDC data, are significant contributors to 
low graduation rates and preserving the school-to-prison pipeline.\1\ 
Exclusionary discipline practices result in lost instructional time, 
lower academic success, higher rates of grade retention, lower 
graduation rates, and an increased likelihood of involvement in the 
juvenile justice system.\2\ Students who are regularly removed from the 
classroom fall behind in their classwork, experiencing a social and 
emotional distancing and disengagement from school.\3\ This distancing 
promotes disengaged behaviors, such as chronic absenteeism, in turn 
contributing to the widening achievement gap. Research also suggests 
that a relatively lower use of out-of-school suspensions, after 
controlling for race and poverty, correlates with higher test scores, 
not lower.\4\
---------------------------------------------------------------------------
    \1\Skiba, R., & Rausch, M. K. (2006). Zero tolerance, suspension, 
and expulsion: Questions of equity and effectiveness. In C. M. Evertson 
& C. S. Weinstein (Eds.), Handbook of classroom management: Research, 
practice, and contemporary issues (pp. 1063-1089). Mahwah, NJ: Lawrence 
Erlbaum Associates.
    \2\ Steinberg, M. P., & Lacoe, J. (2017). What do we know about 
school discipline reform? Education Next, 17(1), 1-23.
    \3\ Hirschfield, P. J. (2008). Preparing for prison? The 
criminalization of school discipline in the USA. Theoretical 
Criminology, 12(1), 79-101; Arum, R., & Beattie, I. (1999). High school 
experiences and the risk of adult incarceration. Criminology, 
37(7),515-540; Skiba, R., Simmons, A., Staudinger, L., Rausch, M., Dow, 
G., & Feggins, R. (2003). Consistent removal: Contributions of school 
discipline to the school-prison pipeline. Paper presented at the School 
to Prison Pipeline Conference, Cambridge, MA.
    \4\ Losen, D., & Gillespie, J. (2012). Opportunities suspended: The 
disparate impact of disciplinary exclusion from school. Los Angeles, 
CA: The Center for Civil Rights Remedies at The Civil Rights Project, 
8..

    The disparities in suspensions and expulsions evidenced by the CRDC 
data are often a result of subgroups of students being treated and 
punished differently despite engaging in similar behaviors as their 
peers. Studies show that African American students receive harsher 
suspensions for more subjective and less serious behavior than their 
White peers.\5\ African American female students are more likely than 
White female students to be suspended for subjective infractions such 
as defiance and dress code violations.\6\
---------------------------------------------------------------------------
    \5\ Finn, J. D., & Servoss, T. J. (2014). Misbehavior, suspensions, 
and security measures in high school: Racial/ethnic and gender 
differences. Journal of Applied Research on Children: Informing Policy 
for Children at Risk, 5(2), 1-50.
    \6\ Losen, D. J. (2014). Closing the school discipline gap: 
Equitable remedies for excessive exclusion. New York, NY: Teachers 
College Press.
---------------------------------------------------------------------------
    Further, in some states and districts, ``school discipline becomes 
criminalized through its extension into the juvenile court''\7\ 
regardless of the severity of the behavior, including for truancy or 
willful defiance rather than causing some damage or injury, ``erod[ing] 
the traditional boundaries between the two institutions.''\8\ As states 
plan their educational tracks for college and career under ESSA, they 
must also purposefully and simultaneously plan for the removal of the 
school-to-prison track and any policies or conditions that perpetuate 
its existence.
---------------------------------------------------------------------------
    \7\ Hirschfield, P. J. (2008). Preparing for prison? The 
criminalization of school discipline in the USA. Theoretical 
Criminology, 12(1), 79-101.
    \8\ Hirschfield, P. J. (2008). Preparing for prison? The 
criminalization of school discipline in the USA. Theoretical 
Criminology, 12(1), 79-101.

    The Department should be looking for evidence in State ESSA plans 
---------------------------------------------------------------------------
that include, for example:

    a.  A commitment to removing zero-tolerance policies and the use of 
suspensions and expulsions for lower-level offenses.
    b.  A description of strategies for replacing these practices with 
supportive, inclusive, and effective strategies to address student 
misbehavior, including restorative justice.
    c.  The provision of model school discipline policy and agreements 
that clarify the distinction between educator discipline and law 
enforcement discipline, eliminating referrals to law enforcement for 
all nonviolent, noncriminal offenses.
    d.  The provision of professional development that includes 
strategies for classroom management, conflict resolution, and 
mediation.
    e.  A description of how district, school, and classroom-level data 
will be used to provide targeted professional development for teachers 
and interventions and support at the student, classroom, school, or 
district level as needed.
    f.  The provision of training on implicit bias and asset-based 
youth development for teachers and administrators, school resource 
officers, police, juvenile judges, and others dealing with youth.\9\
---------------------------------------------------------------------------
    \9\ Staats, C. (2015). Understanding implicit bias: What educators 
should know. American Educator, 39(4), 29-33.

    Question 2. How do you think the Department should hold states 
accountable to meet this legal requirement? Do you think the Department 
---------------------------------------------------------------------------
should be approving plans that don't meet the requirement?

    Answer 2. The Department should be looking for evidence of State 
efforts in their ESSA plans, including in State descriptions of how 
they will support schools identified for intervention and support and 
how they will leverage any funding under Titles II, IV, and VI to 
support these efforts. Gaps in subgroup performance will not be closed 
without a concerted effort to address disparities in student 
expectations and treatment, including how students are disciplined, 
perceived, and excluded from learning opportunities.

    Question 3. What additional steps do you think the Department 
should take to support schools in reducing exclusionary discipline 
practices and identifying disproportionate and discriminatory policies 
related to discipline?

    Answer 3. The Department has a number of resources that it should 
be actively sharing with states (and encouraging states to share with 
LEAs as they develop their plans) to support these efforts. These 
include the ``U.S. Department of Education and the U.S. Department of 
Justice, Rethink School Discipline: School District Leader Summit on 
Improving School Climate and Discipline Resource Guide for 
Superintendent Action.''\10\ This resource provides evidence-based 
action steps at the LEA and school level to create safe, supportive 
school climate, discipline systems, and practices in collaboration with 
local stakeholders.

    \10\ U.S. Department of Education. (2015). Rethink school 
discipline: School district leader summit on improving school climate 
and discipline. Resource guide for superintendent action. Washington, 
DC: U.S. Department of Education.

    There are additional resources the Department could share through 
technical assistance and other outreach efforts to states and 
---------------------------------------------------------------------------
districts, including:

    <bullet>  Boccanfuso, C., & Kuhfeld, M. (2011). Multiple responses, 
promising results: Evidence-based, nonpunitive alternatives to zero 
tolerance. Washington, DC: 0Child Trends.
    <bullet>  The Dignity in Schools Campaign provides several 
resources for policies that remove police from schools, replacing them 
with effective staff-led strategies for classroom management, conflict 
resolution, and mediation. Resources also include model school 
discipline codes and a school discipline code comparison tool.
    <bullet>  Resources on Implicit Bias
                <bullet>   Implicit Bias Awareness Assessment: https://
                www.tolerance.org/professional-development/test-
                yourself-for-hidden-bias
                <bullet>   Understanding Implicit Bias: What Educators 
                Should Know (AFT): https://www.aft.org/ae/winter2015-
                2016/staats
                <bullet>   When Implicit Bias Shapes Teachers 
                Expectations (NEA): http://neatoday.org/2015/09/09/
                when-implicit-bias-shapes-teacher-expectations/

    The opinions expressed in this memo are the author's own and do not 
necessarily reflect the views of The Johns Hopkins University or The 
Johns Hopkins Institute for Education Policy.
    [Whereupon, at 11:48 a.m., the hearing was adjourned.]

                                   [all]

      
</pre></body></html>
